                             Evaluation of Support Provided to Mobilized Army National Guard and
                             U.S. Army Reserve Units
                                                                                                              August 2005
                             Who Should Read This Report and Why?
                             Leaders of DoD organizations responsible for providing mobilization and logistical support to
                             deployed Reserve Component (RC) and Active Component (AC) units should read this report.
                             The report discusses standards and criteria for logistical support and lessons learned from
                             logistical operations during Operation Enduring Freedom (OEF) and Operation Iraqi Freedom
                             (OIF).
  I nspections
                             What Was Identified?
     and
 E valuations                OEF and OIF further confirmed that the Reserve Components are an increasingly critical and
                             vital element of our military forces. The Army encountered significant logistical challenges to
 The final report may        initiate and conduct sustained land combat operations for OEF and OIF. We conclude that
 be obtained through         support was adequate and that no systemic disparity exists between support provided to reserve
    our website at           component soldiers and to active component soldiers, beyond the disparities “by design”
   www.dodig.mil             associated with the tiered readiness system.

                             Logistic Challenges.
                             We focused specifically on the Army’s performance in providing the following support:
       VISION
  A professional team of     Potable water. Potable water produced by Reverse Osmosis Water Purification Units
      outcome-oriented       (ROWPUs) was readily available in quantity. However, deployed soldiers expected bottled
    inspectors promoting
                             water. This expectation complicated the distribution system, greatly increasing the ground
      positive change by
                             transportation requirements to ship bottled water into Iraq and Afghanistan.
 identifying opportunities
     for performance and
efficiency improvements in   Proper Uniforms. At the outset of OIF, the inventory of desert camouflage uniforms (DCUs)
Department programs and      and desert boots was insufficient. Consequently, all reserve component soldiers did not get the
          operations.        initial requisite four sets of DCUs and two pair of desert boots. Instead, they used approved in
                             lieu of Battle Dress Uniforms (BDUs) and regular combat boots.

                             Food/Food Service. The compressed OIF operations tempo resulted in some units having to
      MISSION                eat Meals Ready to Eat (MREs) in excess of 21 days, which is a deviation from AR 40-25
     The Directorate of      policy. However, there were no reported health complications associated with these limited
      Inspections and        occurrences. The extended use of MREs caused complaints about lack of variety and lack of
   Evaluations conducts      hot meals, fresh fruits, and vegetables.
objective and independent
     customer-focused        Medical Care. Medical care was adequate during OEF and OIF. Dental care was an issue
management and program       during the early stages of deployments. RC soldiers perceived that they could not get routine
  inspections addressing     dental care, while AC soldiers could. This perception was unfounded.
    areas of interest to
     Congress and the        Communications. Access to communications with family members was adequate for both RC
 Department of Defense,      and AC soldiers, although availability, reliability, and speed did not meet the expectations of
    and provides timely      today’s soldiers. The ability to communicate with family has improved.
        findings and
recommendations leading      How It Can Be Improved.
   to positive changes in
         programs.
                             We made fourteen recommendations in the areas of:
                                      •   Publication and policy changes.
                                      •   Leadership.
                                      •   Metrics.
                                      •   Quality assurance.
GENERAL INFORMATION
Forward questions or comments concerning the Evaluation of Support Provided to Mobilized
Army National Guard and U.S. Army Reserve Units and other activities conducted by the
Inspections & Evaluations Directorate to:

                             Inspections & Evaluations Directorate
                Office of the Deputy Inspector General for Inspections & Policy
                 Office of the Inspector General of the Department of Defense
                                     400 Army Navy Drive
                                Arlington, Virginia 22204-4704
                                  crystalfocus@dodig.osd.mil

An overview of the Inspector General of the Department of defense mission and organizational
structure is available at http://www.dodig.osd.mil.




TO REPORT FRAUD, WASTE, AND ABUSE
Contact the OIG DoD Hotline by telephone at (800) 424-9098, by e-mail at hotline@dodig.mil,
or in writing:

                                      Defense Hotline
                                       The Pentagon
                                Washington, D.C. 20301-1900




                                              ii
                            TABLE OF CONTENTS
Executive Summary                                                                    v
Background and Overview                                                              1
Chapter 1—Potable Water                                                              7
      Standards/Criteria for Potable Water                                           7
      Results of the Survey/Sensing Sessions                                         9
      Other Evaluation Results                                                      10
      Actions Taken/Proposed                                                        13
      Conclusions                                                                   14
      Observations                                                                  14
      Recommendation                                                                15
Chapter 2—Organizational Clothing and Individual Equipment (OCIE)                   16
      Standards/Criteria for OCIE                                                   16
      Results of the Survey/Sensing Sessions                                        18
      Other Evaluation Results                                                      19
      Actions Taken/Proposed                                                        21
      Conclusions                                                                   22
      Observations                                                                  22
      Recommendations                                                               23
      Management Comments and Evaluation Response                                   23
Chapter 3—Food and Food Service Quality                                             26
      Standards/Criteria for Food and Food Service Quality                          26
      Results of the Survey/Sensing Sessions                                        27
      Other Evaluation Results                                                      29
      Actions Taken/Proposed                                                        31
      Conclusions                                                                   32
      Observation                                                                   32
      Recommendations                                                               32
Chapter 4—Medical Care                                                              33
      Standards/Criteria for Medical Care                                           33
      Results of the Survey/Sensing Sessions                                        34
      Other Evaluation Results                                                      36
      Actions Taken/Proposed                                                        38
      Conclusions                                                                   40
      Observations                                                                  40
      Recommendations                                                               40
Chapter 5—Ability to Communicate with Family Members                                42
      Standards/Criteria for Telephone/Internet Communications with Families from
      a Combat Theater                                                              42
      Results of the Survey/Sensing Sessions                                        43
      Other Evaluation Results                                                      44
      Actions Taken/Proposed                                                        45
      Conclusions                                                                   46
      Observation                                                                   46
      Recommendations                                                               46


                                            iii
TABLE OF CONTENTS (Continued)

Chapter 6—Other Issues—After Action Reports                            47
      Standards/Criteria for After Action Reports                      47
      Results of the Sensing Sessions                                  47
      Actions Taken/Proposed                                           48
      Conclusion                                                       48
      Observation                                                      48
      Recommendations                                                  48
      Management Comments and Evaluation Response                      49

List of Appendixes
        A            Methodology                                       50
        B            Congressional Letter                              55
        C            Questionnaire and Sensing Session Results         58
        D            Department of Defense (DoD) Comments              62
        E            Army/U.S. Army Reserve Command (USARC) Comments   67
        F            National Guard Bureau (NGB) Comments              70
        G            Organizations Visited                             75
        H            Questionnaires                                    76
        I            Sensing Session Questions                         85
        J            Other Issues                                      86
        K            Glossary                                          89
        L            Report Distribution                               97




                                         iv
Executive Summary

Evaluation of Support to Mobilized Army National Guard and U.S. Army Reserve
Units

Background and Overview

Congressional Request. This evaluation was initiated on April 9, 2004, in response to a
November 6, 2003, letter sent to the Department of Defense (DoD) Inspector General (IG) and
signed by 28 members of Congress (see Appendix B). The letter expressed concerns that
deployed Army National Guard soldiers were subjected to inadequate supply of potable water,
lack of proper clothing, poor food quality, inferior medical care, and difficult access to
communications with their families.

Evaluation Scope. To address this congressional request, this report examines mobilization and
logistics issues impacting Army National Guard and the Army Reserve units that deployed to
Afghanistan, Iraq, and Kuwait in support of the global war on terrorism (GWOT). Together,
these forces comprise the reserve component (RC). When the RC is combined and integrated
with the US Army active duty component (AC), the resultant capability is the “total force.”

Historical Disparity Between AC and RC. There are inherent disparity factors when
comparing AC to RC force structure. Historically, the policy of “tiered readiness” means that, in
a resource-constrained environment, where there is insufficient funding to resource all units
simultaneously with the latest equipment and training, those units expected to deploy first
receive the newest equipment and increased funding. This resource allocation strategy ensures
that the first units expected to deploy can do so immediately, without delays for receipt of newer
equipment, additional people, and/or training. Consequently, the reserve components, which
were expected to have more time to get ready, have received less funding, less training, and less
modern equipment than their active component counterparts. RC forces make up over 54
percent of the total force; yet receive less than 11 percent of the Army’s budget. Nevertheless,
since September 11, 2001, nearly 40 percent of the RC units have mobilized.

Evaluation Methodology

On April 9, 2004, after preliminary inquiries into the issues highlighted in the congressional
letter and press reports, we announced this evaluation to review the support provided to the
mobilized Army National Guard (ARNG) units and extended the scope to include US Army
Reserve Command (USARC) units. Specifically, this report evaluates two basic arguments:

        1. Adequacy, and
        2. Disparity

The first argument centers on whether the support provided to the RC was adequate, and
sufficient to meet mission needs.

The second argument centers on whether treatment and support of the RC units were the same as
provided to the AC units.

                                                 v
To evaluate these arguments of adequacy and disparity, we had to separate “perceptions” from
“reality” and draw conclusions from empirical data, rather than from anecdotal reports. We also
had to determine if policies/guidance were adequate and if the data we gathered were
representative and accurate. The team also had to factor in the realities and uncertainties of a
nation preparing and going to war. Therefore, to accomplish these tasks, the team used this
methodology:

            9 Reviewed policy and guidance that existed prior to OEF and OIF for each of the
              areas.
            9 Interviewed RC/AC officials and enlisted soldiers who were deployed or had
              returned from Iraq and Afghanistan.
            9 Used survey techniques:
                  o Sent out comprehensive questionnaires to RC and AC Commanders/First
                      Sergeants who were currently deployed or had just returned from
                      deployment, receiving responses from 72 RC and 40 AC units.
                  o Sent out comprehensive questionnaires to State Adjutants General (TAGs)
                      and Commanders of Reserve Readiness Commands (RRCs).
                  o Conducted sensing session interviews using a comprehensive set of
                      questions on each of the areas.
            9 Questioned AC/RC staff subject matter experts.
            9 Identified new and revised policies to improve the logistical support process.
            9 Analyzed all the data to formulate appropriate observations and
              recommendations.

Results

The support provided to mobilized Army                               Disparity
National Guard and Reserve soldiers                             2 2  o f 112
                                                                    20%
was adequate overall. Although                 120
numerous sensing session and unit              100
questionnaire respondents expressed              80
                                                 60   10 o f 2 7                                Concerns
concern about instances of perceived                    3 7%
                                                                             17 o f 2 8
                                                                                6 1%
                                                 40                                             No concerns
disparate treatment, we did not find                                                     6 of 8
                                                                                          75%
disparate treatment to be systemic,              20
                                                  0
beyond that which results from the tiered           Sensing    U nit s       TAG        RRC
readiness system. Some RC soldiers
alleged that AC soldiers got more/better
food, better medical/dental care, and had better access to telephones and internet
communications with families. The chart above summarizes responses on the issue of general
disparity between RC and AC soldiers, based on sensing sessions with soldiers and
questionnaires sent to unit Commanders/First Sergeants, State Adjutants General, and U.S. Army
Reserve Regional Readiness Commands.


We focused specifically on the following issues: availability of potable water, proper individual
clothing (mainly Desert Camouflage Uniforms—DCUs—and desert boots), food/food service,
medical/dental care, and access to communications with family members.

                                                    vi
Although bulk water produced by Reverse Osmosis Water Purification Units (ROWPU) was
readily available, both RC and AC soldiers stated that ROWPU water was over-chlorinated and
                                                        tasted bad. Other concerns were that the water
               Potable Water                            was too hot to drink and could have
               10 o f 112                               caused diarrhea. In some instances, bottled
                  9%
120                                                     water was rationed in March, April, and May
100                                                     2003 e.g., only two 1.5 liter bottles per person
 80                                                     per day. Again, ROWPU potable water was
 60 14 o f 2 7                              Concerns    available in adequate quantities. There was a
                          7 of 2 8
 40   52  %                 2 5%   2  o f 8 No Concerns plentiful supply of bottled water after the first
                                     2 5%
 20                                                     three months of OIF.
  0
      Sensing   U nit s   TAG   RRC



There were initial problems with an
adequate supply of DCUs and desert                           Proper Clothing
boots. After initial inventories had                            44 of 112
                                                                  39%
been issued to higher tiered units            120
(mainly AC), stock depletion could not        100
be immediately replaced. Therefore,            80
many RC soldiers only received 2 sets          60
                                                                                             Concerns
                                                                           22 of 28
of DCUs and 1 pair of desert boots.                   23 of 27              79%              No Concerns
                                               40      85%                            4 of 8
.Some reportedly received a mixed                                                     50%
                                               20
issue, e.g., summer jacket, winter
                                                0
trousers. However, the Army Battle                 Sensing     Units      TAG       RRC
Dress Uniform (BDU) and regular
combat boots were designated as
acceptable in lieu of items. Each RC soldier was supposed to report to the mobilization station
with their normal issue of four sets of BDUs and two pair of regular combat boots from home
station. With these in lieu of items, the supply of proper clothing was adequate. Army Logistics'
reports indicate that, based on demand data and shipment, DCU stocks were adequate to issue 4
sets per soldier by November 2003.

                                                         The concerns expressed regarding food
    Food and Food Service Quality
                                                         and food service were limited to menu
                2 8 o f 112
                                                         variety at contractor-operated dining
                   2 5%                                  facilities (DFACs), and not about poor
120
                                                         food quality. Some soldiers at remote
100
                                                         sites complained about the variety of hot
 80
                                                         food delivered from the Dining Facilities
 60                                          Concerns
       7o f 2 7
                             8 0f 28
                               29%
                                                         (DFACs) and only having Meals, Ready
 40     26%                                  No Concerns
                                      1 of 8             to Eat (MREs). There was an alleged
                                       13 %
 20                                                      incident of food poisoning in Kuwait in
  0                                                      2002 and one incident of food rationing in
     Sensing Units          TAG      RRC
                                                         Afghanistan in 2002. The guards at the
                                                         Abu Gharaib prison in Iraq said that
prisoners got more and better hot meals. There were no complaints about spoiled food or food
poisoning in Afghanistan or Iraq. There was one complaint about an initial shortage of cooks in
                                                    vii
Kandahar, Afghanistan. There were numerous complaints about the initial shortage of hot meals,
fresh fruit, and vegetables. However, the preponderance of the evidence indicates that food and
food service support was adequate.
                                                        Medical/Dental Care
                                                                  18 of 112
Most medical concerns were about                                     16%
lack of routine dental care--an issue       120
affecting AC and RC soldiers equally        100
in Iraq and Afghanistan. Our                 80
evaluation concluded that                    60                               11 o f 2 8
                                                                                                     Concerns
                                                     21 0f 27
                                                                                39%
medical/dental care was adequate with        40
                                                       78 %
                                                                                            3 of 8
                                                                                                     No Concerns
no evidence of disparity between RC          20
                                                                                             38%

and AC soldiers.                              0
                                                  Sensing       Units         TAG          RRC




Access to Communication with Family                   Morale phone calls to “home” using
               41 of 112
                 37%
                                                      Defense Switch Network (DSN) was
  120                                                 slow and unreliable. Early in OIF,
  100                                                 soldiers had to wait in line for hours for
   80                                                 a 15 minute phone call once a week.
   60    24 of 27     17 of 28          Concerns      Soldiers complained that there were
   40
           89%          61%
                                 3 of 8
                                        No Concerns   insufficient numbers of DSN telephones
   20
                                  38%                 and phone card charges on commercial
                                                      phones were too expensive. Initially,
    0
      Sensing Units  TAG       RRC                    there was limited internet computer (e-
                                                      mail ) capability. The ability to
communicate electronically with family members at home clearly fell short of soldiers’
expectations. Those expectations may have been unrealistic in a developing combat theater.
Some AC units brought more unit-owned computers with them than RC units did. However,
beyond that, there was no disparity between RC and AC soldiers’ ability to communicate with
family members. CENTCOM and the Space and Naval Warfare Systems Command have
significantly improved access to communications with family as the theater has matured. These
efforts continue.

During the course of this evaluation, it became evident that most Army National Guard and U.S.
Army Reserve units were not preparing or forwarding formal After Action Reports (AARs) for
use in the Army Lessons Learned System. We found no clear indication of unresolved issues
being consolidated and tracked at the Army National Guard Bureau or the U.S. Army Reserve
Command. When RC units do not actively participate in the Army’s established Lessons
Learned System, the ability of the Center for Army Lessons Learned to collect, analyze, and
disseminate lessons learned during mobilization/demobilization and combat operations is
diminished and could lead to recurring mistakes and deficiencies.




                                              viii
Conclusions

In the areas of potable water, proper clothing (DCUs/desert boots), food/food service,
medical/dental care, and access to communications with family members, the logistical support
provided to both RC and AC soldiers was adequate and sufficient to meet mission needs.

The preponderance of the evidence shows no systemic disparity in the logistic support provided
to RC and AC soldiers, beyond that resulting from the tiered readiness system.

Furthermore, the feedback from our sensing sessions indicates that RC units, both Army
National Guard and US Army Reserve, do not routinely participate in the established Army
Lessons Learned System, as outlined in AR 11-33.

Recommendations

To improve the mobilization and logistical support to both RC and AC soldiers, we recommend:

1. The Army G-4 should develop a plan of action and schedule to implement short and long
term palatability improvements of field drinking water supplies in arid environments, including
those recommended by the Joint Medical Field Water Subgroup, Joint Environmental
Surveillance Work Group, which advises the Deputy Assistant Secretary of Defense (Force
Health Protection and Readiness).

2. The RC leadership should ensure that all RC soldiers understand:

   a. the concept of “in lieu of” equipment issues, and

   b. the “disparity by design” issues associated with tiered readiness.

3. Reserve Readiness Commands and State Adjutants General must assess the Organization
Clothing and Individual Equipment (OCIE) readiness within their subordinate units and ensure
that shortages are requisitioned, in accordance with Army regulations, prior to mobilization.
They must also ensure that RC soldiers take their OCIE with them to mobilization stations.

4. Army G1, in coordination with Army G4, should update the Army Personnel Policy Guidance
to clarify the responsibilities for purchasing and requisitioning OCIE shortages at the
mobilization stations.

5. The Commander, U.S. Army Center for Health Promotion and Preventive Medicine
(USACHPPM) should:

   a. Publish guidance on evaluation/analysis of DD Forms 5161, “Comprehensive Food
Service Inspections,” and other food inspection reports, as required by Army Technical Bulletin
MED 530.

   b. Establish procedures for corrective implementing recommendations derived from the
evaluation/analysis of food service reports.


                                                 ix
6. LOGCAP and the DoD Veterinary Service Activity should establish a quality assurance
procedure to track corrective action(s) for USACHPPM identified food service deficiencies.

7. The Army Surgeon General should:

   a. Identify what elements comprise appropriate medical care in a combat theater and how
those elements should be compiled and reported.

   b. Establish metrics that measure the quality of medical treatment rendered to the individual
patient in the combat theater.

8. The Chief, Army Reserve/Commander, U.S. Army Reserve Command should:

         a. Establish procedures requiring all US Army Reserve units mobilized and deployed
in support of contingency or combat operations to prepare and submit After Action Reports
(AARs), after returning from deployment, thru their chains of command, to the U.S. Army
Reserve Command for consolidation and forwarding to US Army Forces Command and the
Center for Army Lessons Learned, in accordance with AR 11-33.

         b. Establish a procedure to document and track the status of open action items resulting
from recurring issues, recommendations, or lessons learned, as reported in the AARs.

9. The Director, Army National Guard and State Adjutants General should:

         a. Establish procedures requiring all Army National Guard units mobilized and
deployed in support of contingency or combat operations to prepare and submit AARs, after
returning from deployment, thru their chains of command, to the Director, Army National Guard
for consolidation and forwarding to the Center for Army Lessons Learned, in accordance with
AR 11-33.

         b. Establish procedures to document and track the status of open action items resulting
from recurring issues, recommendations, or lessons learned reported in the AARs.

Management Comments and Evaluation Response:

The Assistant Secretary of Defense for Health Affairs and the Assistant Secretary of
Defense for Reserve Affairs “concurred with comment.” Their comments addressed general
aspects of the report, not related to any specific recommendation. Both agencies’ complete
responses are included in Appendix D.

The Department of the Army Inspector General provided the response of “noted with
comments,” stating, in part: “due to the report highlights on tiered readiness, (Recommendation
2) it would be helpful to readers to also know how the Army has changed to the AC/RC Force
Generation Model, where units progress through levels of increasing readiness toward potential
deployments.” The complete Army IG response is included in Appendix E.



                                                x
I&E Response: Army Modernization Plan 2002, Annex F states, in part: “The Army force
structure goal is to have all active and reserve component elements interchangeable.”
FORSCOM Regulation 350-4 “Training: Army Relationships,” dated July 20, 2000, states, in
part: “The Army has prioritized combat forces according to expected deployment requirements
in support of operation plans (OPLANs) and the need to be capable of responding to unforeseen
crises. The strategy requires a multi-mission capable force of AC and RC units trained to serve
as an effective part of the joint and combined force.” A Conventional Force Generation Model
was created to depict the synchronization of The Army Plan, combatant commanders OPLANs,
Supply Support Center requirements, and resource priorities for conventional Army forces.

The United States Army Reserve Command (USARC) provided management comments on
Recommendation 3. The complete response is included in Appendix E.

Recommendation 3 states: “Reserve Readiness Commands and State Adjutants General must
assess the Organization Clothing and Individual Equipment (OCIE) readiness within their
subordinate units and ensure that shortages are requisitioned, in accordance with Army
regulations, prior to mobilization. They must also ensure that RC soldiers take their OCIE with
them to mobilization stations.”

USARC Comments: “FORSCOM Regulation 700-2, “Logistics Standing Instruction,” instructs
RC units to minimize stockage list of OCIE to training requirements only. There is no
mandatory stockage authorized list of OCIE for RC units. Also, IAW CTA 50-900, most Army
Reserve Central Issue Facilities (CIF) at the mobilization stations have the staff, expertise, and
mission to provide the OCIE necessary to support a unit deployment to a designated geographic
region or climatic zone. OCIE requirements vary by deployment region/zone and RC units
generally do not know before mobilization what the deployment site is; therefore, the actual list
of requirements is not known. The Army Reserve Command published mandatory OCIE
stockage list of items common to all zones, to ensure all units had a baseline stockage of OCIE.

The CIFs at some mobilization stations actually refused to provide OCIE to Army Reserve units,
stating the equipment must be provided by the Army Reserve.

As stated in the recommendations, RC soldiers must understand the concepts of "in-lieu-of"
equipment and "disparity by design." These very concepts support a practice of issuing
equipment as needed, when needed, by a Central Issue Facility. The report recognizes that RC
forces are inadequately funded, therefore, the most efficient management of resources would be
to consolidate and issue OCIE as needed by the mobilization station CIF. It is not fiscally
prudent to fill warehouses and pay storage costs for OCIE not used for training, when the
mobilization stations already operate a CIF.”

I&E Response: It is incumbent on RC leadership to comply with appropriate regulatory
guidance regarding OCIE. While not all OCIE is required to be on hand, items such as BDUs
and regular combat boots are required to be in the possession of RC soldiers. The RC leadership
must confirm such possession, accountability, and serviceability in accordance with AR 710-2,
“Supply Policy Below the National Level.”




                                                xi
In the Army Reserve 2005 Posture Statement it states: “Although the Army Reserve received
$40 million in National Guard and Reserve Equipment Account (NGREA) funding for FY05, an
equipment shortfall totaling more than one billion dollars still remains.”

The National Guard Bureau (NGB) responded to chapters 2, 4, 5 and 6. The complete
response is included in Appendix F.


NGB Management Comments: NGB “nonconcurred” with the statement on page 22 of the draft
report: “Army Logistics’ reports indicate all deploying units were issued four sets of DCUs and
two pair of desert boots by November 2003.” NGB stated that this was misinformation.

“While all major commands were fielded the appropriate quantities of DCUs and boots, divisions
are not doctrinally required to support non-divisional units. Therefore, although the non-
divisional units were in divisional areas of responsibility, the commands were not inclined to
support them. Therefore, while adequate numbers of uniforms were available in theater, the
distribution was not even. As most non-divisional units are ARNG and USAR, those units
predominantly were without the DCUs and boots.”

With regard to Recommendation 2, (in lieu of items and tiered readiness), NGB stated: “The RC
leadership does not need to ensure that all RC soldiers understand the tiered readiness system
which includes “in lieu of” and “disparity by design.” The 12 April 2004 Army Campaign Plan
(ACP) provides direction for preparing the Army to create and sustain a campaign-capable joint
and expeditionary Army.”

I&E Response: We modified the statement on page v of the EXSUM and page 22 in the final
report to read “Army Logistics' reports indicated that, based on demand data and shipment, DCU
stocks were adequate to issue 4 sets per soldier by November 2003.” However, it is possible that
distribution of these DCUs did not make it down to all individual soldiers (RC/AC) before they
redeployed from theater. Although there may have been a higher percentage of RC troops that
did not receive 4 sets of DCUs, there was no evidence to suggest that RC troops did not receive 4
sets of DCUs just because they were RC. Distribution priority for DCUs was primarily to
divisional units, followed by non-divisional units. The priority list did not distinguish AC from
RC. While some non-divisional units were AC, a high percentage of non-divisional units were
RC.

While various initiatives, to include the AC/RC Force Generation Model, promise to better
manage readiness among AC and RC forces, the effort will only be as accurate as the ability to
predict future requirements by type of unit. As new contingencies develop, RC units may have
to be called up before they have reached their highest state of readiness. If that happens, there
will likely be “in lieu of” equipment issues. It is important that RC soldiers understand these
issues.

NGB concurred with Recommendation 10—After Action Reports (AARs).



                                   Return to Table of Contents
                                                xii
Background and Overview

Congressional Request. This evaluation was initiated on April 9, 2004, in response to a
November 6, 2003, letter sent to the Department of Defense (DoD) Inspector General (IG) and
signed by 28 members of Congress (see Appendix B). The letter expressed concerns that
deployed Army National Guard soldiers were subjected to inadequate supply of potable water,
lack of proper clothing, poor food quality, inferior medical care, and difficult access to
communications with their families.

Evaluation Scope. To address this congressional request, this report examines mobilization and
logistics issues impacting on Army National Guard and the Army Reserve units that deployed to
Afghanistan, Iraq and Kuwait in support of the global war on terrorism (GWOT). Together these
forces comprise the reserve component (RC). When the RC is combined and integrated with the
US Army active duty component (AC), the resultant capability is the “total force.”

DoD’s Transition to Total Force. Department of Defense adopted the total force policy in
1973. 1 This policy reinforced the concept that active and reserve components of the US military
should be managed, trained, and equipped as a total force and capable of supporting all US
military operations. As a result of employing this organizational concept, the National Guard
and Army Reserves were no longer considered to be forces of last resort. During the cold war
era, the focus historically was on the prepositioning and deployment of active component units.
During the Persian Gulf War, however, more reliance was placed on the deployments of reserve
component units. Subsequently, this transformation and expanded role of the RC imposed a
great deal of stress on the reserve component units.

Total Force Deployment. Since the terrorist attacks on September 11, 2001, the United States
military has conducted two major deployments in support of the war against global terrorism.
Operation Enduring Freedom (OEF) commenced on October 7, 2001, with the war in
Afghanistan. On March 19, 2003, US military operations launched Operation Iraqi Freedom
(OIF). When the Army went to war in October 2001 and March 2003 respectively, the
transformation process to better integrate the AC and RC forces was ongoing and the optimum
mix had not yet been achieved. The Army was still transitioning from its Cold War posture to
the force more appropriate for global war on terrorism scenarios.

During the period before OEF and OIF, the Army deployment process relied on Operation Plans
(OPLANs) that used the Time-Phased Force and Deployment Data (TPFDD) 2 and the Army
Priority Listing (APL). 3 The OPLANs designated the sequence for deployment, and, therefore,

1
  Secretary of Defense Melvin Laird initiated the Total Force Concept in 1970. It was also known as the Abram’s
doctrine named after General Creighton W. Abrams, Army Chief of Staff from 1972 to 1974. The Total Force
Concept officially became the Total Force Policy on August 23, 1973, when Defense Secretary James R.
Schlesinger endorsed the policy. Since then the Army has pursued transformation initiatives to place "increased
reliance" on the National Guard and Reserve units.

2
  The TPFDD designates units to be deployed to support the operation plan with a priority indicating the desired
sequence of their arrival at the point of destination.

3
    The APL determines the Army’s equipment fielding sequence.

                                                         1
influenced the priorities for training and equipping active and reserve component units. By
design, “the first to fight were the first to resource.” 4

However, for OIF, the TPFDD was not closely followed because of unique or unanticipated
operational requirements. Therefore, some unit mobilizations did not conform to this OPLAN
design. Lower tiered units were mobilized and deployed and were less prepared than units
higher on the TPFDD and the APL. Some reserve component units that were not 100 percent
equipped and ready were called up at the initial buildup and hostilities stages of OEF and OIF.
Under the recently developed Army Force Generation model, resources are no longer tied to
tiered readiness. All Army units in the window for mobilization are planned to be fully
equipped, regardless of whether the unit is AC or RC.

Historical Disparity Between AC and RC. There are inherent disparity factors when
comparing AC to RC force structure. Historically, the policy of “tiered readiness” means that, in
a resource-constrained environment, where there is insufficient funding to resource all units
simultaneously with the latest equipment and training, those units expected to deploy first
receive the newest equipment and increased funding. This resource allocation strategy ensures
that the first units expected to deploy can do so immediately, without delays for receipt of newer
equipment, additional people, and/or training. Consequently, the reserve components, which
were expected to have more time to get ready, have received less funding, less training, and less
modern equipment than their active component counterparts. RC forces make up over 54
percent of the total force; yet receive less than 11 percent of the Army’s budget. Nevertheless,
since September 11, 2001, nearly 40 percent of the RC units have mobilized.

Force Structure. As of January 2005, the Army’s total RC and AC force was 1,037,400
soldiers--482,400 in the active component and 555,000 in the reserve component (350,000 in
the Army National Guard and 205,000 in the US Army Reserve Component). The chart
below illustrates percentage breakout of the RC and AC force structure.


                                             Army Total Force


                                                 USARC
                                                       Army
                                                  20%
                                                        AC
                                                       42%
                                                 ARNG
                                                  38%




                     Army’s Active and Reserve Component Force Structure

The task of preparing, training, equipping and supplying the total force is a complex challenge.
The Army’s global commitments require getting the right troops, with the right equipment, with

4
 The APL sequence is an Army policy based on deliberate plans. It advocates a first-to-fight -to-support principle.
Funding levels mandate the Army to tier resources for manning and equipping Army units on a first to fight basis.
Tiering resources on a “first-to-fight” basis accepts the risk that lower resourced units may not be adequately
manned and equipped and may not have sufficient train-up time to meet wartime readiness.

                                                         2
the right logistics support, at the right place, and at the right time. According to the Army’s 2005
Posture Statement, approximately 640,000 RC and AC soldiers are serving on active duty; hence,
approximately 397,000 soldiers in the reserve component were not on active duty. At any one
time, over 315,000 RC and AC soldiers on active duty are deployed or stationed in more than
120 countries. As of January 2005, scheduled deployments and reinforcements in Iraq alone
increased from 17 to 20 brigades and troop strength climbed to 153, 000 troops. 5 At any given
time, the majority of reserve component and active duty troops who remain in CONUS are
recovering from a deployment or preparing to deploy.

Command and Control. Command and Control tasks for the Central Command (CENTCOM)
area of responsibility present a formidable challenge. For instance, the scope of command and
control requirements for OEF and OIF were far greater than for the Persian Gulf War, in terms of
the objectives, duration of hostilities, number of U.S. troops mobilized and deployed and the
geographical footprint. Long lines of communications complicate responsiveness and decision
making.

Responsibility for the Army’s command and control
functions in the CENTCOM Theater is assigned to the
Third United States Army/Army Central Command
(ARCENT). During the Gulf War, ARCENT headquarters
remained in CONUS. However, for OEF and OIF,
ARCENT moved their headquarters to Kuwait. ARCENT
headquarters employs both active and reserve component
soldiers and Department of Defense civilians. This staff
of over 500 personnel manages day-to-day operations and
planning for the CENTCOM Coalition Force Land
Component Command (CFLCC).

Logistics Challenge. Given the geopolitical factors and the country’s proximity to Afghanistan
and Iraq, the United States and its coalition partners established Kuwait as an important haven
for staging troops and supplies. Most of the supplies supporting OIF are sent to Kuwait and then
redistributed primarily by surface transportation to various locations throughout Iraq. Supplies
in support of OEF flow through Uzbekistan into northern Afghanistan and through Pakistan into
southern Afghanistan. Airlift support for supply and resupply during the initial stages of OEF
and OIF was limited to non-existent, since there were no secure or adequate air fields. Thus, RC
and AC units had to rely on surface transportation to get water, food, clothing, medical supplies,
and other items (ammo, spare parts, petroleum, oil, lubricants, etc.) No easy task. Operational
tempo, weather conditions, insurgents, improvised explosive devices (IEDs), and other hazards
complicated the logistics’ problem.

Press Reports. Soon after the start of OIF hostilities, media reports criticized logistical support
to all deployed troops, especially support provided to RC soldiers. For example, these are some
of the headlines:

               9 “Senators Ask for Comprehensive Study on Guard, Reserve Equipment and Other
                 Issues” (National Guard Association of the United States, April 10, 2003)

5
    This figure was reported in the Army’s 2005 Posture Statement.
                                                          3
           9 “GAO: Reserve, Guard Need Better Systems” (Federal Computer Week, August
             21, 2003)
           9 “Army Says National Guard and Reservist Now in Iraq Will Spend 12 Months--
             Surprise to Some” (San Diego Union-Tribune, September 9, 2003)
           9 “Utah National Guard’s Gripes Aired in D.C.” (Desert Morning News, September
             11, 2003)
           9 “VVA Denounces Inadequate Care for Returning Troops” (Vietnam Veterans of
             America (VVA), October 29, 2003)
           9 “Injury Rate for Reservist on the Rise” (Boston Globe, November 5, 2003)

Prompted by these and other reports and complaints from their constituents, on November 6,
2003, twenty-eight members of Congress signed a letter requesting the Department of Defense
Inspector General (DoD IG) investigate media reports and concerns received from the families of
National Guard personnel. The reports alleged a lack of support and perceived inequities for
Guard units deployed in the global war on terrorism. Specific examples cited in the letter were:

   •   Inadequate supply of potable water,
   •   Lack of proper clothing,
   •   Poor food quality,
   •   Inferior medical care, and
   •   Difficult access to communications with their families.

Evaluation Methodology

On April 9, 2004, after preliminary inquiries into the issues highlighted in the congressional
letter and press reports, we announced this evaluation to review the support provided to the
mobilized Army National Guard (ARNG) units and extended the scope to include US Army
Reserve Command (USARC) units. Specifically, this report evaluates two basic arguments:

   1. Adequacy, and
   2. Disparity

The first argument centers on whether the support provided to the RC was adequate, and
sufficient to meet mission needs.

The second argument centers on whether treatment and support of the RC units were the same as
provided to the AC units.

To evaluate these arguments of adequacy and disparity, we had to separate “perceptions” from
“reality” and draw conclusions from empirical data, rather than from anecdotal reports. We also
had to determine if policies/guidance were adequate and if the data we gathered was
representative and accurate. The team also had to factor in the realities and uncertainties of a
nation preparing and going to war. Therefore, to accomplish these tasks, the team used this
methodology:

           9 Reviewed policy and guidance that existed prior to OEF and OIF for each of the
             areas.

                                                 4
              9 Interviewed RC/AC officials and enlisted soldiers who were deployed or had
                returned from Iraq and Afghanistan.
              9 Used survey techniques:
                    o Sent out comprehensive questionnaires to RC and AC Commanders/First
                        Sergeants who had just returned from deployment, receiving responses
                        from 72 RC and 40 AC units.
                    o Sent out comprehensive questionnaires to State Adjutants General and
                        Commanders of Reserve Readiness Commands.
                    o Conducted sensing session interviews using a comprehensive set of
                        questions on each of the areas.
              9 Questioned AC/RC staff subject matter experts.
              9 Identified new and revised policies to improve the logistical support process.
              9 Analyzed all the data to formulate appropriate observations and
                recommendations.

The evaluation team examined all of the applicable regulations, policies, and instructions that
govern the management of the support items in question. This research was deemed necessary to
understand the guidance that was in place prior to OEF and OIF. Theoretically, leaders and
managers used these references to facilitate decision making during the build up period prior to
combat and during the deployment and employment of forces. As illustrated in the following
chapters, the team also captured guidance that has been added, supplemented, revised, and/or
drafted since the initiation of OEF and OIF. In some cases additional guidance or revisions are
recommended. As a practical matter, war fighting is fluid, dynamic, and rife with uncertainty
and risk. Our civilian and military leaders must continually exercise flexibility, good judgment
and common sense to accommodate real world contingencies and the “fog of war.” 6

The evaluation team also interviewed/surveyed active duty and reserve component officials and
enlisted soldiers who were deployed to or returned from the AOR. Their testimony was crucial
to the evaluation process and represented “first hand” information. The team mailed a 33 item
questionnaire to Commanders and First Sergeants of RC units that had recently returned from
Afghanistan, Iraq, or Kuwait. This version was also sent through active duty IGs to selected
active duty units. A 21-question version of the questionnaire was sent through the National
Guard Bureau (NGB) to the 54 State Adjutants General (TAGs). A 17-question version was sent
through the U.S. Army Reserve Command (USARC) to the Regional Readiness Commands
(RRCs). (See Appendix H for the questionnaires.) The team also conducted 23 sensing sessions
with RC units and 4 sensing sessions with AC units while visiting 14 geographically different
locations within the CONUS. The 23 RC sensing sessions were conducted at 6 Army National
Guard and 7 Reserve Component locations. The 4 AC sensing sessions were conducted at Fort
Stewart, Georgia. Each session consisted of 10-15 soldiers and some 350 soldiers were
questioned. The AC sensing sessions were used to control and compare the data on adequacy



6
  "Fog of war" is the term used to describe the lack of knowledge that occurs during a war. The Prussian military
analyst Karl von Clausewitz wrote: "The great uncertainty of all data in war is a peculiar difficulty, because all
action must, to a certain extent, be planned in a mere twilight, which in addition not infrequently like the effect of a
fog or moonshine gives to things exaggerated dimensions and unnatural appearance."



                                                            5
and disparity. (See Appendix I for the 10-question Sensing Session Guide, which was used for
all sensing sessions, regardless of component.)

Iraq was the destination for most of the deployments. Therefore, the unit sensing sessions and
questionnaires targeted the units that deployed to Iraq. There was only one sensing session
conducted with units that returned from Kuwait and one that returned from Afghanistan.

See Appendix A for additional information on the methodology used to collect data for this
evaluation.

                                   Return to Table of Contents




                                               6
Chapter 1--Potable Water
Objective: To determine whether units that deployed to Afghanistan, Iraq and Kuwait
received an adequate supply of potable water and if any disparity existed between reserve
component (RC) and active duty (AC) soldiers.

Standards/Criteria for Potable Water
The following table and short synopsis of each publication established the standards/criteria that
were used to determine the adequacy of potable water supplies. These standards/criteria apply
equally to Active Duty, National Guard, and U.S. Army Reserve soldiers. Those publications
listed in black were the basis for potable water operations in support of Operation Enduring
Freedom (OEF) and Operation Iraqi Freedom (OIF) through March 2003. Those in blue have
been updated/published since that time, incorporating changes and any applicable lessons learned
from OEF/OIF.


               Table 1--DoD, Joint Staff, and Army Standards for Potable Water

PUBLICATION                    TITLE                            DATE
Army Technical Bulletin -      Sanitary Control and             March 1986
Medical 577                    Surveillance
Army Regulation (AR) 40-5      Preventive Medicine              October 15, 1990
DoDD 4705.1                    Management of Land-Based         July 9, 1992 (certified current as of
                               Water Resources in Support of    December 8, 2003)
                               Contingency Operations
AR 700-136                     Tactical Land Based Water        April 1, 1993
                               Resources Management in
                               Contingency Operations
AR 40-657                      Veterinary/Medical Food          November 6, 1997 (revised January 21,
                               Inspection and Laboratory        2005)
                               Service
Army Combined Arms Support     Potable Water Planning Guide     June 15, 1999
Command (CASCOM)
Army Field Manual (FM) 21-10   Field Hygiene and Sanitation     June 21, 2000
Army FM 4-25.12                Unit Field Sanitation Teams      January 25, 2002
CENTCOM “Sand Book”            Contingency and Long Term        June 21, 2002
                               Base Camp Facilities Standards
AR 30-22                       The Army Food Program            August 30, 2002
DoD Directive (DoDD) 5101.1    DoD Executive Agent              September 3, 2002
HQ, Army G-4, Memorandum       Bottle Water Policy              March 27, 2003
For Record
Joint Publication (JP) 4-03    Joint Bulk Petroleum and Water   May 23, 2003
                               Policy
DoDD 5101.10                   DoD Executive Agent for          September 22, 2004
                               Subsistence


Army Technical Bulletin, Medical 577, “Sanitary Control and Surveillance of Field Water
Supplies,” March 1986, states that preventive medicine specialists are to perform periodic
inspections of each water point to ensure the sanitary condition and potability of the water.

                                                  7
Army Regulation (AR) 40-5, “Preventive Medicine”, October 15, 1990, Chapter 14, established
field preventive medicine responsibilities, and stated that unit commanders are responsible for
appointing and training field sanitation teams in communicable disease control, food service
sanitation, water supply, waste disposal, and related topics.

DoDD 4705.1, “Management of Land-Based Water Resources in Support of Contingency
Operations,” July 9, 1992, (certified current as of December 8, 2003), describes responsibilities
of the Secretary of the Army, designated by the directive to be the DoD Executive Agent for
land-based water sources, include establishing a Joint Water Resources Management Action
Group and calling meetings as required to coordinate and resolve water support issues.

AR 700-136, “Tactical Land-Based Water Resources Management in Contingency Operations”,
April 1, 1993, states that the Army G-4 is responsible for land based water resources in support
of joint operations, establishing and chairing meetings of the Joint Water Resources Management
Action Group to coordinate and resolve water support issues.

AR 40-657, “Veterinary/Medical Food Inspection and Laboratory Service,” November 6, 1997,
revised January 21, 2005, states that veterinary inspectors will perform sanitation audits of
commercial bottled water and ice plants.
Army Combined Arms Support Command (CASCOM) “Potable Water Planning Guide,” June
15, 1999, lists several potable water planning factor quantities in gallons per person per day for
different climates. The minimum quantity listed for hot arid areas is 6.41 gallons per person per
day. The CASCOM guide also states that water must be approved by a command surgeon or his
representative to be considered safe for drinking.
Army Field Manual (FM) 21-10, “Field Hygiene and Sanitation,” June 21, 2000, is a step-by-
step guide for field sanitation teams. Specifically, the manual describes how to check bulk water
supplies for chlorine residuals and chlorinate water supplies. The field manual also states that
soldiers should consume between a half to a full quart (1.1 liters) of fluids per hour in warm
weather, not to exceed 12 liters per day.
Army FM 4-25.12, “Unit Field Sanitation Teams”, January 25, 2002, describes various water
treatment methods. The primary method described is the reverse osmosis process, performed by
specialized reverse osmosis water purification units (ROWPUs).
The CENTCOM “Sand Book, Contingency and Long Term Base Camp Facilities Operations”,
June 21, 2002, states that “Transported or bottled water should be used only during the early
stages of a contingency operation, and should be used only as a long-term potable water source if
no alternate sources are available.”
AR 30-22, “The Army Food Program”, August 30, 2002, states that bottled water required for
initial deployment and contingency operations requires Army Deputy Chief of Staff for Logistics
(Army G-4) approval.
DoD Directive (DoDD) 5101.1, “DoD Executive Agent,” September 3, 2002, requires DoD
Executive Agents to “Ensure proper coordination with the DoD Components for the
responsibilities and activities assigned to provide continuous, sustainable, and global support as
required by end users.”



                                                 8
HQ, Army Deputy Chief of Staff for Logistics (G-4) Memorandum For Record (MFR), Subject:
“Bottle Water Policy,” March 27, 2003, authorized Army commanders to temporarily spend
subsistence funds to obtain a three day supply of bottled water while soldiers were enroute into
Iraq.

Joint Publication 4-03, “Joint Bulk Petroleum and Water Doctrine,” May 23, 2003, provides
general guidance on field water responsibilities. The publication states that “The basic concept
of tactical bulk water support is to purify water as close to the user as possible.” It also states
that “Planners should weigh the advantages and disadvantages of packaged [e.g., bottled] and
bulk water carefully to ensure the best method is chosen to support the contingency.” In
addition, it states that potable water is required for drinking, personal hygiene, centralized
hygiene (showering), food preparation, hospitals, nuclear, biological, and chemical
decontamination, and refugee and enemy prisoner of war camps. (This is a more expansive list
than the Army Combined Arms Support Command Potable Water Planning Guide.)

DoDD 5101.10, “DoD Executive Agent for Subsistence,” September 27, 2004, designated the
Director, DLA as the DoD Executive Agent for subsistence, including bottled water. The
directive instructs combatant commanders to provide subsistence requirements to DLA. A DLA
official stated that this new designation was delegated to DLA’s Defense Supply Center
Philadelphia (DSCP).


Results of the Survey/Sensing Sessions

Overview: Based on the analysis of the unit questionnaire responses from 72 RC units and 40
AC units, plus the sensing session comments from soldiers assigned to 24 RC and 4 AC units,
the results of the surveys indicate that RC and AC soldiers equated availability of potable
drinking water with “bottled water.” The survey indicates that sufficient quantities of bottled
water were generally available at Camp Arifjan and other locations in Kuwait in early 2003
while the units trained and waited to move into Iraq. Consequently, soldiers did not have to
drink the ROWPU-produced bulk water, which some said was too chlorinated, too warm and
tasted bad. The consensus among the RC and AC soldiers was that they did not and would not
drink ROWPU-produced water.

There were some instances where bottled water was rationed. For example, 4 of the 72 RC units
(5.5%) said that they experienced rationing of bottled water at some locations during the
hostilities in March, April and May 2003. Only 1 of the 72 RC units (1.4%) reported that they
encountered a disparity in availability of bottled water.

Unit Questionnaire Results—Potable Water

The following statements characterize the responses from the 112 RC and AC unit
questionnaires that were completed by commanders/first sergeants:

   •   Members of 4 of the 15 RC units and none of the 35 AC units (8%) that deployed in 2003
       reported rationing of bottled water during March, April and May, 2003. The 4 RC units
       said that they received only 2 or 3 bottles per day during that period versus the four 1.5

                                                 9
       liter bottles that CENTCOM authorized. None of the 57 RC units and none of the 5 AC
       units (0%) that deployed in 2004 said that there was rationing of bottled water.
   •   Members of 1 RC unit that deployed to Iraq in 2003 perceived that they were limited to 3
       bottles of water per day while AC had unlimited bottles of water.
   •   103 of the total 112 unit respondents (92%) equated availability of potable water to the
       availability of bottled water.
   •   Some of the respondents who indicated that the unit consumed ROWPU-produced water
       said that it was too chlorinated, too warm, and tasted bad.
   •   Members of 1 RC unit perceived that the bottled water had a mineral content that could
       cause kidney stones.

Sensing Session Results—Potable Water

The following statements characterize the responses from the 27 RC and AC sensing sessions:

   •   Four of the 23 RC units and all 4 AC unit sensing session participants (30%) said that
       bottled water was rationed during the period of March to May 2003.

   •   Although ROWPU-produced water in water buffalos was reportedly available, some of
       the RC and AC soldiers said that they did not consider ROWPU-produced water as
       potable drinking water. Those interviewees said that they did not have to drink ROWPU-
       produced water because there was plenty of bottled water, after the initial rationing.
       Other complaints about ROWPU-produced water were (1) “hot water temperature and no
       means to chill it,” (2) “it tasted bad,” and (3) “it was over chlorinated.” Some perceived
       that the ROWPU water would cause diarrhea.
   •   RC soldiers in 2 of 23 RC sensing sessions (9%) reported that they had to give some of
       their bottled water to the prisoners. (These RC soldiers were assigned at the Abu Gharaib
       prison in 2003.)

State Adjutants General and Commander, Regional Readiness Commands (RRCs)
Questionnaire Results—Potable Water

Questionnaire results from State Adjutants General and Commanders of USAR Regional
Readiness Commands paralleled the comments noted above and are summarized in Appendix C.


Other Evaluation Results
Overview: Questionnaire respondents and sensing session interviewees generally referred to the
availability of bulk water as ROWPU water, and to the availability of drinking water as bottled
water. However, JCS Publication 4-03 refers only to bulk water or packaged water. Army
Regulation 700-136, “Tactical Land-Based Water Resources Management in Contingency
Operations,” refers to potable water vs. treated water vs. raw water and states that Army
quartermaster units are responsible for treating and distributing potable water. The Army
Combined Arms Support Command’s Potable Water Planning Guide describes eight different
categories of water, but does not mention packaged or bottled water. Only the food-related

                                               10
Army guidance (AR 30-22) and a new draft version of Army Technical Bulletin, Medical 577,
“Sanitary Control and Surveillance of Field Water Supplies,” mentions bottled water.


                                         Potable Bulk Water: Army Field Manual 4-25.12, “Unit
                                         Field Sanitation Teams,” January 25, 2002, describes
                                         various methods for treating and producing potable bulk
                                         water. The primary method described is the reverse
                                         osmosis process, performed by specialized reverse osmosis
                                         water purification units (ROWPUs). The ROWPU (shown
                                         at left) uses equipment transported on a flat bed trailer. The
                                         equipment uses three levels of filtration to treat raw river or
                                         well water at a rate of 3,000-gallons per hour. The picture
on the left is a ROWPU filtration system and 3,000-gallon water bladders filled with potable
water in Iraq. Not shown, is a smaller, 600-gallon per hour system that is also being used in Iraq.
The field manual also states that field sanitation teams use calcium hypochlorite to disinfect
water. The calcium hypochlorite is a white powder, commonly
known as chlorine. ROWPU-produced water must be tested for
chlorine content after it is moved to unit areas in 400-gallon water
trailers, commonly known as “water buffalos,” pictured on the
right. Although the water in these buffalos often exceeds 100
degrees Fahrenheit in the CENTCOM AOR, the water is safe to
drink, if the chlorine residual is at least one milligrams per liter. If
not, the water must be re-chlorinated, which can result in strong
chlorine smell and taste.

Bottled Water: As previously stated, both RC and AC soldiers preferred bottled water. A new
draft version of Army Technical Bulletin, Medical 577, “Sanitary Control and Surveillance of
Field Water Supplies,” describes bottled water as:

        “…water that is sealed in bottles, packages, or other containers by commercial (non-military) interests for
        human consumption. It may or may not have been treated prior to bottling…A list of military-approved
        sources world-wide is published by VETCOM at http://vets.amedd.army.mil/vetcom/directory.htm.”

Subject Matter Expert Comments: According to the Army Food Advisor at the Army Center
of Excellence, Subsistence, “Bottled water is ingrained in our culture -- leaders expect it and will
continue to get it. I don't see us reverting back to the days of pushing water buffalos around the
battlefield.” Also, the U.S. Army Center for Health Promotion and Preventive Medicine stated
in a March 24, 2003 information paper that “The use of bottled water in deployments has
increased dramatically during the last decade due to its rapid availability, its logistical flexibility,
and its immediate acceptability by the deployed force….” However, the lack of chilling devices
on the water buffalos and access to ice to chill bottled water or canteens were the primary
drinking water issues in the CENTCOM AOR, according to U.S. Army Center for Health
Promotion and Preventive Medicine officials. 7


7
 Even water with no or very low chlorine content becomes bad tasting at temperatures above 90 degrees Fahrenheit,
according to U.S. Army Center for Health Promotion and Preventive Medicine officials.

                                                        11
Reports from Preventive Medicine Officials at the Army Medical Command Center and
School: Preventive Medicine officials also reported that soldiers were issued only two 1.5 liter
bottles of water per day at some forward operating locations in 2003 and were expected to drink
additional quantities of ROWPU-produced water in order to stay hydrated and to prevent heat
stroke. The Preventive Medicine officials and some interviewees also reported that adequate
quantities of water were not always consumed to avoid heat stroke when the available drinking
water was hot. The Preventive Medicine officials recommended that an operational system or
process for providing sufficient, good tasting drinking water from bulk distribution sources was
needed. This is a programmatic issue that the Army leadership should address.

Water Inspections: According to the Army Center for Health Promotion and Preventive
Medicine, preventive medicine specialists in the CENTCOM AOR were conducting water point
inspections. As of February 2005, Center officials had received and archived 2,589 DA Forms
5456-R, “Water Point Inspection,” and other testing documents. These documents record the
results of sampling many types of raw water, ROWPU-produced water and bottled water at 80
sites in Iraq, Afghanistan and Kuwait. However, the Center’s database reflected a lack of
consistent testing at some of those sites. For example, the Center had received and archived only
1 to 3 testing documents from 48 out of the 61 listed sites in Afghanistan and Iraq.
CENTCOM Water Requirements: There are two types of
water requirements. First is bottled water. CENTCOM
established a minimum daily bottled water requirement for
Iraq of four 1.5 liter bottles (6 liters) per person in March/
April 2003, according to an official in the Office of the
CENTCOM Director of Logistics (CENTCOM J4). The
second type is bulk water. CENTCOM is using the Army
standard of six gallons (22.71 liters) of potable bulk water per
person per day in Iraq for the various requirements listed in
Joint Publication 4-03, “Joint Bulk Petroleum and Water Doctrine.” These requirements include
personal hygiene and showering, food preparation, hospitals, refugee and enemy prison camps,
nuclear, biological and chemical decontamination, as well as drinking water. As of December
10, 2004, bottled water accounted for approximately 20 percent of all road convoy cargo being
transported into or within Iraq, according to the Deputy Director, Mobility Forces, Combat Air
Operations Center in Qatar. As of February 2005, a CENTCOM J-4 official indicated that
percentage may be as high as 40 percent of all road convoy cargo, and will likely continue to go
up as temperatures rise during the spring and summer months. The Army’s Potable Water
Planning Guide lists a minimum of approximately 6 gallons/person/day in hot, arid climates and
4.5 gallons/person/day for temperate climates. FM 21-10, Table 3-1, lists fluid replacement
guidelines by temperature and level of physical activity.
The CENTCOM J4 official also stated that the bottled water requirement for Afghanistan varied,
depending upon the availability of potable ROWPU-produced bulk water, and the season.
Cost of Bottled Water: The total cost of purchasing and transporting bottled water was not
available. However, according to a U.S. Army Center for Health Promotion and Preventive
Medicine Information Paper, dated March 24, 2003:
       “…the monetary costs and sustained logistical burden of procuring, transporting, and
       distributing bottled water in the field, along with managing the empty-bottle wastes, make
       bottled drinking water far more costly than drinking water produced from the ROWPU and
       other sources.”

                                                      12
Also, a draft Joint Quality of Life Standards for Contingency Operations Handbook, dated July
1, 2004, provided by Army G-4 officials, lists the order of preference for sources of potable
water in main base camps. The draft handbook included the following comment on the total cost
involved in the current procedures for providing bottled water to soldiers and civilian employees
in Iraq and Afghanistan:
       The least desirable option is trucking potable water and/or bottle water to the base camp. The cost
       of purchasing and maintaining the trucks along with drivers and the reoccurring cost of bottle
       water to include purchase, transport, storage, and waste disposal needs to be included in the initial
       cost estimate.
The draft handbook does not, however, list the option of contractor-operated bottling
facilities, as described below.

Actions Taken/Proposed
1. CENTCOM J-4 officials stated in a December 23, 2004 message that trucking bottled water
puts drivers, escorts and truck assets in grave danger due to insurgency and security issues. The
message directed that a concept be developed to establish and operate commercial water
purification and bottling facilities on U.S. bases in Iraq and Afghanistan. As of March 14, 2005,
the Army Contracting Agency’s Joint Contracting Center in Iraq published a Statement of Work
document and drafted a Request for Proposal to initiate contracts for a water bottling capability
on U.S. bases in the AOR. A contract was awarded to American Aqua Source, Inc. on May 25,
2005.
2. As requested in June 2004 at the annual Joint Water Resources Management Action Group
Conference, a Joint Medical Field Water Subgroup conducted a medical assessment of
CENTCOM drinking water palatability issues. The subgroup is subordinate to the Joint
Environmental Surveillance Work Group and is an advisory body/forum for deployment
occupational and environmental health surveillance information exchange within the Office of
the Deputy Assistant Secretary of Defense (Force Health Protection and Readiness). In August
2004, this subgroup provided Army G-4 officials with conclusions and possible short and long-
term actions to improve drinking water palatability:
     ¾ Temperature was the greatest palatability problem in the CENTCOM AOR in both bulk
       and bottled water supplies, with high water temperatures contributing to the chlorine
       taste problem.
     ¾ Water buffalos in the AOR quickly absorb daytime heat, especially those painted a
       dark, green color.
     ¾ None of the water chillers on the water buffalos were operable due to incompatible fuel
       requirements.
     ¾ Proper chlorine levels were hard to maintain in a “hot” climate. Over-chlorination of
       water in the water buffalos often contributed to the bad taste problem.
The subgroup’s short term recommendations were:
     ¾ Retrofit new chillers on water buffalos. (May not be cost-effective, as water buffalos
       are to be replaced with new 900-gallon, sealed “CAMEL” water containers with
       chiller/heater components.)


                                                        13
     ¾ Provide more refrigerators and potable ice to chill both ROWPU-produced and bottled
       water.
     ¾ Reduce or eliminate chlorine level requirements.
     ¾ Increase preventive medicine monitoring of field sanitation teams.
     ¾ Make readiness of field sanitation teams a command inspection item.
     ¾ Forward field sanitation monthly reports/briefs through CENTCOM chain of command.
The subgroup’s long-term recommendations were:
     ¾ Field new 900-gallon, sealed “CAMEL” water containers with chiller/heater
       components as soon as possible. (Scheduled to begin in fiscal year 2008.)
     ¾ Provide water chillers with the “Water From Vehicle Exhaust Systems” being
       developed.
     ¾ Use alternative disinfectant technologies.
     ¾ Re-mineralization of ROWPU-produced water.
     ¾ Army packaging of ROWPU-produced water.


3. Thirteen contractor-operated ice plants were fully operational on 6 CENTCOM installations
in Iraq as of July 2005. Four more plants were under construction.
4. Defense Supply Center Philadelphia (DSCP), the DoD Executive Agent for subsistence items
including bottled water, tasked the Army Quartermaster Center and School to test a commercial
process to bottle potable ROWPU-produced water in the field without adding chlorination.
5. Preventive medicine specialists are conducting refresher training classes in the CENTCOM
AOR for field sanitation teams, including the testing and re-chlorinating of ROWPU-produced
water.

Conclusions
Based on the questionnaire and sensing session results, all reserve components (RC) that
deployed to Afghanistan, Iraq, and Kuwait, received an adequate supply of potable water (bottled
plus Reverse Osmosis Water Purification Unit produced bulk water). Only one of 72 RC units
reported that availability of potable water was insufficient to meet mission requirements. This
unit also thought disparity regarding access to bottled water existed between RC and active duty
component (AC) units. Although there were isolated instances of rationed bottled water, overall
availability of water was adequate and there was no significant disparity between RC and AC
soldiers.

Observations
Policy and guidance was sufficient to manage the potable water supply and logistics. However,
initiatives to improve field water programs are not effectively coordinated. Since the initiation
of OIF, the Deputy Assistant Secretary of Defense (Force Health Protection and Readiness) has
established a Joint Medical Field Water Subgroup. In June and July 2004, the subgroup
conducted a medical assessment of CENTCOM drinking water palatability issues, as requested
                                                14
by G-4 officials. However, Army G-4 officials have not developed a plan or schedule to
systemically address both short and long-term courses of action to improve palatability.

Recommendation
The Army G-4 should develop a plan of action and schedule to implement short and long term
palatability improvements of field drinking water supplies in arid environments, including those
recommended by the Joint Medical Field Water Subgroup, Joint Environmental Surveillance
Work Group, which advises the Deputy Assistant Secretary of Defense (Force Health Protection
and Readiness).

                                  Return to Table of Contents




                                               15
Chapter 2—Organizational Clothing and Individual Equipment
(OCIE)

Objective: To determine whether units that deployed to Afghanistan, Iraq, and Kuwait
received an adequate supply of Organizational Clothing and Individual Equipment (OCIE) and if
any disparity existed between RC and AC soldiers.

Standards/Criteria for Organizational Clothing and Individual Equipment (OCIE)
The following table and short synopsis of each publication established the standards/criteria that
were used to determine the adequacy of OCIE, including Desert Camouflage Uniforms (DCUs)
and desert boots. These standards/criteria apply equally to Active Duty, National Guard, and
U.S. Army Reserve soldiers. Those publications listed in black were the basis for issuing OCIE
in support of Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF)
through March 2003. Those in blue have been updated/published since that time, incorporating
changes and any applicable lessons learned from OEF/OIF.


Table 2--Army Standards for OCIE (including Desert Camouflage Uniforms—DCUs--and
Desert Boots)

PUBLICATION                    TITLE                                              DATE
Army Regulation (AR) 71-32     Force Development and Documentation-Consolidated   March 3, 1997
                               Policies

Army Forces Command            FORSCOM Standing Logistics Instructions            December 1, 1999
(FORSCOM) Regulation 700-2     Organization Clothing and Individual Equipment
                               (OCIE)

Army G-4 Message               Desert Camouflage Uniforms (DCUs) in Support of    February 3, 2003
                               OEF (Operation Enduring Freedom)”
Army G4 Message                DCU In Support of OIF/OEF (Operation Iraqi         July 30, 2003
                               Freedom/Operation enduring Freedom)


AR 710-2                       Supply Policy Below the National Level             October 31, 1997,
                                                                                  Revised February
                                                                                  25, 2004

Army G1                        Personnel Policy Guidance                          June 2004




Army Common Table of           Clothing and Individual Equipment                  1994, last updated in
Authorization (CTA) 50-900                                                        August 2004




                                                 16
Army Regulation (AR) 71-32, “Force Development and Documentation-Consolidated Policies,”
March 3, 1997, provides the objectives, procedures, and responsibilities for development and
documentation of Army force personnel and equipment requirements and authorizations. It lists
the equipment requirements and authorization documents to be used for requisitioning unit and
individual equipment. This AR also provides consolidated planning guidance for
implementation of mobilization authorization documents.

Army FORSCOM Regulation 700-2, “FORSCOM Standing Logistics Instructions Organization
Clothing and Individual Equipment (OCIE),” December 1, 1999, provides policies and
procedures for the premobilization/predeployment stockage and storage of Common Table of
Allowances (CTA) items. This regulation states, in part, “OCIE, as a commodity, is continually
changing driven by such factors as technology, the economy, information systems, and legal
statutes. Therefore, wherever possible and as a general rule, OCIE that can be obtained within 72
hours, or is part of a centrally managed inventory controlled program, need not be physically on
hand. As of this publication, all installations can meet this requirement for OCIE where
responsive contracts are in place, e.g., Prime Vendor, Virtual Inventory management contracts
and the like.” During OEF/OIF there were additional OCIE items added based on technology
and other factors.

Army G-4 message, February 17, 2003, Subject: “Desert Camouflage Uniforms [DCUs] in
Support of OEF (Operation Enduring Freedom)” to major Army unit commanders. The message
stated, “all soldiers and Department of Army civilians deploying to the CENTCOM AOR will be
issued two sets of desert camouflage uniforms… as additional assets become available, the Army
will issue the third and fourth sets of DCUs.” The message also stated that soldiers should use
their Woodland Pattern BDUs in lieu of DCUs to make up four sets.

Army G4 message, July 30, 2003, Subject: “DCU in Support of OIF/OEF,” authorized four sets
of DCUs for each soldier deploying in support of those operations (Iraq, Kuwait, and
Afghanistan).

AR 710-2, “Supply Policy below the National Level,” February 25, 2004, states “OCIE issues
will be limited to only those items necessary to satisfy the mission and needs of the unit.” This
AR provides guidance on the establishment of central issue facilities within the Army National
Guard, stating the State Adjutants General will determine whether one or more ARNG CIFs are
established to centrally issue OCIE to ARNG soldiers and whether ARNG units are authorized
OCIE stockage. AR 710-2 states ARNG “Unit commander conducts annual OCIE inspections of
all items issued on OCIE records. Inspections will include physical validations of quantities
issued and conditions of the item. On mobilization, OCIE issued from ARNG CIFs will be
transferred to the PBOs of the units to which the property was issued.” The U.S. Army Reserve
(USAR) OCIE will be accounted for on property books. Responsibility will be assigned to
soldiers when OCIE is issued.

Department of the Army G1 “Personnel Policy Guidance,” June 2004, Chapter 6, discusses
personal clothing and equipment. Paragraph 6.2a. of the guidance states in part: “Reserve
Component (RC) units are responsible for filling Organizational Clothing and Individual
Equipment (OCIE) for deploying soldiers. Mobilization stations will requisition shortage for
ARNG soldiers using NGB funds.”

                                               17
CTA 50-900, “Clothing and Individual Equipment,” August 2004, authorizes clothing and
individual equipment worn and used by soldiers; it is comprised of organizational clothing and
individual equipment (OCIE), clothing bag personal items and operational clothing items.
Common Table of Allowances (CTA) 50-900 applies to both RC and AC units. It authorizes
four Battle dress Uniforms (BDUs) per enlisted soldier. OCIE item requirements differ from
contingency to contingency due to climatic zones. For such items, authorization is pre-approved
by the individual Combatant CINC via message traffic.

Results of the Survey/Sensing Sessions
Overview: Of the items that comprise Army Organizational Clothing and Individual Equipment
(OCIE), DCUs and desert boots were the primary OCIE concerns identified by RC soldiers.
These OCIE items are addressed in the following discussion.

Twenty five of the 72 RC units that responded to our unit questionnaire (35%) and 15 of the 23
RC units that participated in sensing sessions (65%) stated there were inadequate quantities of
DCUs and desert boots. Although the Army G4 message directed the use of BDUs in lieu of
DCUs, ARNG officials told us that some of their soldiers reported to their mobilization station
with only one set of BDUs and, therefore, deployed with less than the required four sets of
uniforms (DCUs or BDU in lieu of). In July 2003, the Army directed that every attempt be made
to issue four sets of DCUs to all soldiers deploying to the CENTCOM AOR. According to
Defense Supply Center Philadelphia, the Army was able to issue four sets of DCUs by October
2003 to all units deploying to the CENTCOM AOR.

Analysis of the unit questionnaire responses from 72 RC units and 40 AC units, plus the sensing
session comments from soldiers assigned to 23 RC and 4 AC units, indicates:

       Reserve component (RC) soldiers did not always get four sets of desert camouflage
       uniforms (DCUs) and two sets of desert boots before deploying to Iraq. The data also
       indicates that not all active duty soldiers were issued four sets of DCUs and two sets of
       desert boots. In almost all cases, the shortfall of required sets of DCUs/desert boots was
       covered with battle dress uniforms (BDUs) and regular combat boots. Together, the
       combination of DCUs/BDUs and desert boots/combat boots constitute proper clothing.
       There was evidence of disparity between the RC and AC soldiers which was a function of
       “tiered readiness criteria” for funding and equipping the total force and the realities of
       inventory deficits during the high demand period. The DCU problem has been solved
       given the maturity of the war effort, manufacturers’ response to requirements, and
       replenishment of inventory stocks.


Unit Questionnaire Results—DCUs and Desert Boots

The following statements characterize the responses from the 112 RC and AC unit
questionnaires that were completed by commanders/first sergeants:

       •   Out of 112 respondents to our unit questionnaire, 44 (39%) had negative comments
           regarding organizational clothing and individual equipment.

                                               18
       •   Soldiers in 35 of the 72 RC questionnaires (49%) presented issues on OCIE
           shortages. The primary issues were DCUs/ desert boots quantity/sizes.

       •   Soldiers in 9 of the 40 (23%) AC units presented OCIE issues. There were no
           negative comments from AC units about the quantity of DCUs/desert boots. One AC
           unit said they received mixed summer and winter DCUs.

Sensing Session Results—DCUs and Desert Boots

The following statements characterize the responses for the 27 RC and AC sensing sessions:

       •   Soldiers in 15 of the 23 RC unit sensing sessions (65%) stated that they received only
           two sets of DCUs before deploying to the CENTCOM AOR. Soldiers in 13 of those
           15 RC unit sensing sessions (87%) said that they did not receive third and fourth sets
           of DCUs once they arrived in the CENTCOM AOR.
       •   Soldiers in 1 of the 23 RC unit sensing sessions (4%) said that they were not issued
           any DCUs because they were to deploy through Turkey and would get their DCUs
           when they arrived in the CENTCOM AOR. This process was directed in an Army
           G4 message dated February 17, 2003, stating that soldiers programmed to remain in
           Turkey would not receive DCUs and would continue to wear the Woodland Pattern
           BDUs.
       •   Soldiers in the remaining 5 of the 23 RC unit sensing sessions (22 %) said that they
           received four sets of DCUs from mobilization stations located at Fort Bliss, TX, Fort
           Knox, KY, Fort Eustis, VA, and Camp Atterbury, IN.
       •   Soldiers in 2 of the 23 RC unit sensing sessions (9%) said that AC units received four
           sets of DCUs while they received only two DCU sets. A plausible reason for this is
           that AC units, such as the 101st Infantry Division, bought DCUs during the early
           stages using operating tempo (OPTEMPO) funds.
       •   Soldiers in 5 of the 23 RC unit sensing sessions (22%) said that they received either
           wrong-sized DCUs or a mix of summer and winter DCUs.
       •   Soldiers in 9 of the 23 RC unit sensing sessions (39%) said that they received only
           one pair of desert boots or received wrong sized boots.
       •   Soldiers in all 4 of the AC sensing sessions (100%) said they received four sets of
           DCUs and two sets of desert boots.


State Adjutants General and Commander, Regional Readiness Commands (RRCs)
Questionnaire Results—DCU and Desert Boots

Questionnaire results from State Adjutants General and Commanders of USAR Regional
Readiness Commands paralleled the comments noted above and are summarized in Appendix C.



Other Evaluation Results
Overview: The Army’s standard issue of DCU clothing is four sets (trousers and coats), with
two pairs of desert boots and one hat. In March 2003, due to increasing deployments, the Army

                                               19
did not have enough DCUs and desert boots in the inventory to provide the standard issue. The
Army G4 sent out a message to all the major commands in February 2003 directing the issue of
two sets of DCUs and one pair of DCU boots. The message also stated that soldiers would use
their Woodland Pattern BDUs and regular combat boots as authorized in lieu of items to offset
the shortage of DCUs and desert boots.
                                      Chart 1                                                                                Chart 2
                                 2003 DCU Demand                                                                        2004 DCU Demand
               600                                                                                    600
               500                                                                                    500




                                                                                          Thousands
   Thousands




               400                                                                                    400
               300                                                                                    300
               200                                                                                    200
               100                                                                                    100
                0                                                                                      0




                                                                                                                                                 Jul
                                                 Jul




                                                                                                                        Mar

                                                                                                                              Apr
                     Mar

                           Apr




                                                                                                            Jan

                                                                                                                  Feb




                                                                                                                                     May

                                                                                                                                           Jun



                                                                                                                                                       Aug

                                                                                                                                                             Sep



                                                                                                                                                                         Nov
                                                                                                                                                                               Dec
                                  May

                                         Jun



                                                       Aug

                                                             Sep



                                                                         Nov

                                                                               Dec




                                                                                                                                                                   Oct
                                                                   Oct




                                        C o at         T ro users                                                                   C o at         T ro users




Charts 1 and 2, above, show the demands for DCUs in 2003 and 2004. In both years, July and
November were the peak months for demand coinciding with deployment rotations for OIF.
Although Army G4 could not provide an exact date, the DCU item manager at Defense Supply
Center Philadelphia reported that he believes that the Army was able to issue four sets to all AC
and RC units in October 2003. Demand was drastically reduced in 2004.

Subject Matter Expert Comments: The Army G4 sends priority for DCU requirements to the
Defense Supply Center Philadelphia (DSCP). In February 2003, DSCP received hard numbers
from the Army G4 relative to the number of troops being deployed and the demand by item.
Immediate actions to remedy shortfalls included award of contract extensions and award of
exigency acquisitions. DSCP immediately increased production and accelerated deliveries,
converted to desert items, and invoked surge provision under existing contracts.

In a DSCP Fact Sheet, Subject: “Desert Camouflage Uniform (DCU) Ensemble,” dated March
18, 2003, DSCP officials stated “demand for DCUs has greatly increased during the past 18
months, causing DSCP to take action in response to the higher demand and in anticipation of
scenarios that might further inflate demand.” In a Fact Sheet, Subject: “Desert Camouflage
Uniform (DCU Ensemble),” prepared June 10, 2003, DSCP stated that, in a meeting with Army
G-4 in February 2003, a plan was developed for an additional 480K desert coat/trousers for the
3rd and 4th sets. Five exigency contract awards were made to produce 1,097,000 sets. Deliveries
for 2003 were scheduled at the rate of 240K in June, 250K in July and 264K in August and
September. DSCP reported DCU demand data from Fiscal Year 2002 increased between 258%
and 421% from pre-September 11, 2003 demand. Much of this increase occurred in the last
quarter of FY 02 due to numerous requests from AC units gearing up for deployment.

The Army G4 reported that the priority for issuing DCUs during 2003 was:

1. Combined Forces Land Component Command (CFLCC) - 80% of production (includes issue
   of 3d and 4th pair of DCUs to RC and AC soldier’s in-theater who had only been issued 2 sets
   initially)
                                                                                     20
2. 1/501st Task Force (TF) from Alaska - 5% (an AC unit on the deployment schedule)
3. Continental United States (CONUS) based unit - 10% (includes mobilization stations where
   RC units process enroute to CENTCOM’s AOR)
4. US Army – Europe (USAEUR) - 5% (largely AC)

Actions Taken/Proposed
The following are actions the Army has taken to improve the requisitioning and distribution of
OCIE, specifically DCUs and desert boots:

1. The Army created a single acquisition office to focus, refine, and leverage new technologies
to benefit the individual Soldier. The Program Executive Office (PEO) Soldier stood up in April
2002. PEO Soldier’s mission is to arm and equip soldiers. The PEO Soldier and US Army
Force Management Support Agency updated all CTA tables, including CTA 50-900, as of
November 2003.

2. AR 710-2 “Supply Policy Below the Wholesale Level,” October 31, 1997, was revised and
re-titled as AR 710-2 “Supply Policy Below the National Level,” on February 25, 2004. The
revised AR institutes several changes regarding funding for OCIE and management of Central
Issue Facilities (CIFs). It provides additional guidance on the establishment of CIFs within the
Army National Guard.

3. As the CENTCOM AOR matured, the Army deployed larger RC elements (brigades) with
their headquarters versus smaller RC elements (companies) that were attached to AC
headquarters. The increase of RC leadership resolved some administrative and logistical
problems that were RC specific.

4. The Army no longer uses the Army Priority Listing (APL) process. The new procedures
apply higher priority for requisitioning supplies and equipment to deploying units.

5. Army G1 Personnel Policy Guidance (PPG) (the only dated version provided was June 2004)
dictated that mobilization stations would requisition OCIE (to include DCUs and desert boot)
shortages using NGB funds. The PPG for reimbursement of DCU shortages from NGB does not
coincide with actual practice. FORSCOM officials stated that, throughout OEF/OIF, various
mobilization stations submitted requests to FORSCOM for funds to purchase OCIE. Some
identified the need to buy OCIE for ARNG; but not for reimbursement. Funds were provided
without going through NGB for reimbursement. The Army G4’s guidance was to purchase DCU
shortages using OEF/OIF Supplemental funds. This guidance conflicted with the Army G1 PPG.
Army G4 and G1 are revising the Personnel Policy Guidance on clothing issues at the
mobilization stations and will publish the new guidance once completed. Army G4 officials sent
out proposed changes for comments to both RC and AC major commands.

6. The Army's Rapid Fielding Initiative (RFI) program was developed to provide soldiers with
state-of-the-art individual weapons, clothing, and equipment. RFI began in late 2002, capturing
lessons learned during operations in Afghanistan (OEF). The RFI program continues to be
updated. Program Executive Office (PEO) went into the field and directly asked soldiers what
they required to operate effectively in the Afghan environment. Using this direct soldier input,
RFI provided needed equipment in weeks--not months or years. RFI continued to provide that
                                               21
function as new requirements developed in OIF. The Department of the Army (DA) guidance
for fielding RFI as of December 2004 was:

       - OIF before OEF
       - Brigade Combat Teams before Support Personnel
       - RC before AC due to RC units having more outdated equipment than AC units


                                      7. The Army is going to one uniform for worldwide
                                         deployments. The new uniform is called the Army
                                         Combat Uniform (ACU), pictured at left, and replaces
                                         the Battle Dress Uniform (BDU) and the DCU. In
                                         March 2005, a Georgia National Guard unit was the
                                         first organization issued this uniform, prior to their
                                         deployment to the CENTCOM AOR.

                                         Although outside the focus of this evaluation, AC/RC
                                         leadership have a specific interest in ensuring that
                                         soldiers do not deploy without essential equipment
                                         (body armor, chemical/biological protection suits,
                                         etc.). A tracking system was developed to manage the
issues of body armor. Leadership closely monitored the detailed tracking system to ensure
requirement-based distribution of body armor. As of November 2003, Army Logistics' reports
indicated that, based on demand data and shipment, DCU stocks were adequate to issue 4 sets
per soldier.

Conclusions
Over 50% of the RC units surveyed that deployed to Afghanistan, Iraq, and Kuwait did not
deploy with all four sets of DCUs or two pair of correctly sized desert boots. This shortage was
offset with approved in lieu of BDUs and regular combat boots that RC soldiers were supposed
to already have in their possession from home station. Almost all RC units reported to
mobilization stations with shortages of OCIE items that they were required to bring with them
from home station. In combination, these factors led to a period of perceived disparity between
RC and AC soldiers with regard to the specific issue of DCUs and desert boots.

Observations
1. Tiered (planned) readiness levels led to a period of disparity between RC and AC soldiers
regarding the issue of DCUs and desert boots, although this disparity was largely offset by in lieu
of BDUs and regular combat boots. Tiered (planned) readiness levels also meant some RC units
were not funded for certain OCIE items, further leading to disparity.

2. RC unit leadership did not ensure that RC soldiers had all of the required OCIE, to include
BDUs and regular combat boots—which made DCU/desert boot shortages worse. One
mobilization station reported spending $1,080,223.74, or $450 per RC soldier, on OCIE
shortages that the RC soldier should have had before leaving home station.


                                                22
3. The Army G4’s guidance allowed the fill of DCU shortages using OEF/OIF Supplemental
funds, which conflicted with the Army G1 Personnel Policy Guidance (PPG).

Recommendations
1. The RC leadership should ensure that all RC soldiers understand:

   a. the concept of “in lieu of” equipment issues, and

   b. the “disparity by design” issues associated with tiered readiness.

2. Reserve Readiness Commands and State Adjutants General must assess the Organization
Clothing and Individual Equipment (OCIE) readiness within their subordinate units and ensure
that shortages are requisitioned, in accordance with Army regulations, prior to mobilization.
They must also ensure that RC soldiers take their OCIE with them to mobilization stations.

3. Army G1, in coordination with Army G4, should update the Army Personnel Policy Guidance
to clarify the responsibilities for purchasing and requisitioning OCIE shortages at the
mobilization stations.

Management Comments and Evaluation Response
The Department of the Army Inspector General provided the response of “noted with
comments,” stating, in part: “due to the report highlights on “tiered readiness”(Recommendation
1, above), it would be helpful to readers to also know how the Army has changed to the AC/RC
Force Generation Model, where units progress through levels of increasing readiness toward
potential deployments.” The complete Army IG response is included in Appendix E.

I&E Response: Army Modernization Plan 2002, Annex F states, in part: “The Army force
structure goal is to have all active and reserve component elements interchangeable.”
FORSCOM Regulation 350-4, “Training: Army Relationships,” dated July 20, 2000, states, in
part: “The Army has prioritized combat forces according to expected deployment requirements
in support of operation plans (OPLANs) and the need to be capable of responding to unforeseen
crises. The strategy requires a multi-mission capable force of AC and RC units trained to serve
as an effective part of the joint and combined force.” A Conventional Force Generation Model
was created to depict the synchronization of The Army Plan, combatant commanders OPLANs,
Supply Support Center requirements, and resource priority for conventional Army forces.

The United States Army Reserve Command (USARC) provided management comments on
Recommendation 2. The complete response is included in Appendix E.

Recommendation 2 states: “Reserve Readiness Commands and State Adjutants General must
assess the Organization Clothing and Individual Equipment (OCIE) readiness within their
subordinate units and ensure that shortages are requisitioned, in accordance with Army
regulations, prior to mobilization. They must also ensure that RC soldiers take their OCIE with
them to mobilization stations.”



                                                23
USARC Comments: FORSCOM Regulation 700-2, “Logistics Standing Instruction,” instructs
RC units to minimize the stockage list of OCIE to training requirements only. There is no
mandatory stockage authorized list of OCIE for RC units. Also, IAW CTA 50-900, most Army
Reserve Central Issue Facilities (CIF) at the mobilization stations have the staff, expertise, and
mission to provide the OCIE necessary to support a unit deployment to a designated geographic
region or climatic zone. OCIE requirements vary by deployment region/zone and RC units
generally do not know before mobilization what the deployment site is; therefore, the actual list
of requirements is not known. The Army Reserve Command published mandatory OCIE
stockage list of items common to all zones, to ensure all units had a baseline stockage of OCIE.

The CIFs at some mobilization stations actually refused to provide OCIE to Army Reserve units,
stating the equipment must be provided by the Army Reserve.

As stated in the recommendations, RC soldiers must understand the concepts of "in-lieu-of"
equipment and "disparity by design." These very concepts support a practice of issuing
equipment as needed, when needed, by a Central Issue Facility. The report recognizes that RC
forces are inadequately funded, therefore, the most efficient management of resources would be
to consolidate and issue OCIE as needed by the mobilization station CIF. It is not fiscally
prudent to fill warehouses and pay storage costs for OCIE not used for training, when the
mobilization stations already operate a CIF.

I&E Response: It is incumbent on RC leadership to comply with appropriate regulatory
guidance regarding OCIE. While not all OCIE is required to be on hand, items such as BDUs
and regular combat boots are required to be in the possession of RC soldiers. The RC leadership
must confirm such possession, accountability, and serviceability IAW with AR 710-2.

In the Army Reserve 2005 Posture Statement it states: “Although the Army Reserve received
$40 million in NGREA funding for FY05, an equipment shortfall totaling more than one billion
dollars still remains.”

The National Guard Bureau (NGB) responded to chapters 2, 4, 5 and 6. The complete
response is included in Appendix F.

Management Comments: NGB “nonconcurred” with the statement on page 22 of the draft
report: “Army Logistics’ reports indicate all deploying units were issued four sets of DCUs and
two pair of desert boots by November 2003.” NGB stated that this was misinformation.

“While all major commands were fielded the appropriate quantities of DCUs and boots, divisions
are not doctrinally required to support non-divisional units. Therefore, although the non-
divisional units were in divisional areas of responsibility, the commands were not inclined to
support them. Therefore, while adequate numbers of uniforms were available in theater, the
distribution was not even. As most non-divisional units are ARNG and USAR, those units
predominantly were without the DCUs and boots.”
With regard to Recommendation 2, (in lieu of items and tiered readiness), NGB stated: ‘The RC
leadership does not need to ensure that all RC soldiers understand the tiered readiness system
which includes “in lieu of” and “disparity by design.” The 12 April 2004 Army Campaign Plan
(ACP) provides direction for preparing the Army to create and sustain a campaign-capable joint
and expeditionary Army.”
                                                24
I&E Response: We modified the statement on page 22 of the final report to read “Army
Logistics' reports indicate that, based on demand data and shipment, DCU stocks were adequate
to issue 4 sets per soldier by November 2003.” However, it is possible that distribution of these
DCUs did not make it down to all individual soldiers (RC/AC) before they redeployed from
theater. Although there may have been a higher percentage of RC troops that did not receive 4
sets of DCUs, there was no evidence to suggest that RC troops did not receive 4 sets of DCUs
just because they were RC. Distribution priority for DCUs was primarily to divisional units,
followed by non-divisional units. The priority list did not distinguish AC from RC. While some
non-divisional units were AC, a high percentage of non-divisional units were RC.

While various initiatives, to include the AC/RC Force Generation Model, promise to better
manage readiness among AC and RC forces, the effort will only be as accurate as the ability to
predict future requirements by type of unit. As new contingencies develop, RC units may have
to be called up before they have reached their highest state of readiness. If that happens, there
will likely be “in lieu of” equipment issues. It is important that RC soldiers understand these
issues.


                                   Return to Table of Contents




                                                25
Chapter 3-- Food and Food Service Quality
Objective: To determine whether units that deployed to Afghanistan, Iraq, and Kuwait
received adequate quality food and food service and if any disparity existed between RC and AC
soldiers.

Standards/Criteria for Food and Food Service

The following table and short synopsis of each publication established the standards/criteria that
were used to determine the adequacy of food and food service operations. These standards/
criteria apply equally to Active Duty, National Guard, and U.S. Army Reserve soldiers. Those
publications listed in black were the basis for food and food service operations in support of
Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) through March
2003. Those in blue have been updated/published since that time, incorporating changes and any
applicable lessons learned from OEF/OIF.

  Table 3--DoD, Army, and Defense Logistics Agency (DLA) Standards for Food and Food
  Service

PUBLICATION              TITLE                                 DATE
Army Regulation (AR)     Preventive Medicine                   Oct 15, 1990
40-5
DoD Instruction (DoDI)   Implementation and Application of     Aug 7, 1997
6490.3                   Joint Medical Surveillance for
                         Deployments
AR 40-657                Veterinary/Medical Food Inspection    Nov 6, 1997
                         and Laboratory Service
Defense Supply Center    Inspection of Composite Operational   April 2001
Philadelphia (DSCP)      Rations
Handbook 4155.2
AR 40-25/                Nutrition Standards and Education     June 15, 2001
BUMEDINST 10110.6/
AFI 44-141
AR 30-22                 The Army Food Program                 Aug 30 2002
Army Technical           Occupational and Environmental        Oct 30, 2002
Bulletin MED 530         Health Food Sanitation

DoDD 6400.4              DoD Veterinary Services Program       Aug 22, 2003
Defense Supply Center    Smart Book for Kuwait and Iraqi       Dec 2003
Philadelphia (DSCP)      Food Service Operations
Smart Book
DoD Directory            Directory of Sanitarily Approved      Continuously updated
                         Food Establishments for Armed
                         Forces Procurement



Army Regulation (AR) 40-5, “Preventive Medicine,” October 15, 1990, assigns the Army
Surgeon General responsibility for the Army Preventive Medicine Program.



                                                     26
DoDI 6490.3, “Implementation and Application of Joint Medical Surveillance for Deployments,”
August 7, 1997, assigns responsibility to the U.S. Army Center for Health Promotion and
Preventive Medicine (USACHPPM) for archiving all deployment occupational and
environmental health surveillance data, reports, and assessments.

Army Regulation (AR) 40-657, “Veterinary/Medical Food Inspection and Laboratory Service,”
November 6, 1997, defines the food inspection mission of the U.S. Army Veterinary Command.

Defense Supply Center Philadelphia (DSCP) Handbook 4155.2, “Inspection of Composite
Operational Rations,” April 2001, provides guidance for all DoD personnel responsible for the
inspection and technical management of operational rations.

Army Regulation (AR) 40-25/BUMEDINST 10110.6/AFI 44-141, “Nutrition Standards and
Education,” June 15, 2001, defines the nutrition responsibilities of the Surgeon Generals of the
Army, Navy, and Air Force. It also updates information on nutritional standards for operational
and restricted rations.

Army Regulation (AR) 30-22, “The Army Food Program,” August 30, 2002, assigns
responsibility for nutrition standards, dining facility menus, and operational rations.

Army Technical Bulletin MED 530, “Occupational and Environmental Health Food Sanitation,”
October 30, 2002, prescribes procedures for implementing the Army food service sanitation
program.

DoD Directive 6400.4, “DoD Veterinary Services Program,” August 22, 2003, designates the
Army Surgeon General as the Executive Agent for DoD veterinary services.

Defense Supply Center Philadelphia (DSCP) prepared a December 2003 “Smart Book for
Kuwait and Iraqi Food Service Operations” that includes operating instructions for DoD
Veterinary Service food inspectors.

DoD Directory of Sanitarily Approved Food Establishments for Armed Forces Procurement, lists
approved food product suppliers. It includes those vendors approved to provide food products in
Afghanistan, Iraq, and Kuwait and is continuously updated. Approved suppliers may also be
listed in Department of Agriculture and Department of Commerce directories.

Results of the Survey/Sensing Sessions

Overview: Overall, units responding to our questionnaire and soldiers participating in sensing
sessions reported that the quality of food and food service was adequate. In 20 of the 72 RC unit
questionnaires (28%), respondents had negative responses about food or food service. In 8 of the
40 AC unit questionnaires (20%), respondents had negative responses about food or food
service. There were also negative responses in 7 of the 27 (26%) sensing sessions. However,
most of the negative responses were about temporary food service issues and lack of variety,
rather than about poor food quality. There was 1 negative questionnaire response about disparate
treatment of RC vs. AC soldiers from a total of 112 responses (0.9%). There were also 2
negative sensing session responses from a total of 27 sessions (7%) about temporary disparate

                                                27
treatment of RC vs. AC soldiers. No RC units and only 1 AC unit had negative comments about
the quality of operational rations getting worse during their deployment.

Unit Questionnaire Results—Food and Food Service

The following statements characterize the negative responses from the 112 RC and AC unit
questionnaires that were completed by commanders/first sergeants:

   •   One RC unit out of 112 (0.9%) reported disparate treatment regarding food/food service.
       This unit was deployed to a logistics support base in Iraq in 2003 and said they got only
       one hot meal per day. They contend that AC soldiers supposedly had access to more than
       one hot meal per day.
   •   A RC forward surgical team deployed to multiple sites in Iraq in 2003 said that they had
       to eat Meals, Ready to Eat (MREs) 85 percent of the time because of their mission.
   •   A RC unit that deployed to multiple sites in Iraq in 2003 reported widespread diarrhea
       resulting from sanitation problems at one site--not related to food and food service.
   •   An AC unit deployed to Afghanistan in 2003 that ate Unitized Group Rations and MREs
       (collectively referred to as operational rations) reported that the food quality got much
       worse shortly before they departed.
   •   A RC unit deployed to a logistics support base in Iraq in 2004 said that the dining facility
       (DFAC) food quality was good, but the DFAC was overcrowded.
   •   Two RC companies from the same battalion deployed to a forward operating base in Iraq
       in 2004 said that the food at their DFAC was “very bad” and not the same as the food
       served in a nearby DFAC.
   •   A RC unit deployed to Afghanistan in 2004 said that the DFAC food and food service
       was “substandard” and the DFAC was constantly out of Gatorade, bread, butter, and salt.

Sensing Session Results—Food and Food Service

The following statements characterize the statements from the 27 RC and AC sensing sessions:

   •   Perception of disparity: Soldiers in 2 of the 23 RC sensing sessions (9%) were from a
       RC unit deployed to Ar Ramadi in 2003. They said that they were barred from eating in
       the only available dining facility (DFAC) for several months in early 2003. (This was the
       result of DFAC capacity and the security considerations of transporting troops to and
       from outlying areas.) Instead, selected unit personnel picked up food that could be
       transported in insulated containers, commonly known as “mermite” containers, from the
       DFAC to the RC unit’s forward operating base and combat outpost. Interviewed soldiers
       referred to this food as “leftovers” that the AC soldiers didn’t want. (This “leftover”
       comment could not be substantiated.) All RC soldiers were later allowed to eat in that
       DFAC and in a second DFAC that eventually opened.
   •   Lack of Variety: Soldiers in 2 of 23 RC sensing sessions (9%) were with a RC unit
       deployed to Abu Gharaib prison in 2002. They reported getting only eggs for their single
       hot meal in the DFAC. Since the prisoners got two hot meals each day, they sometimes
       ate the prisoners’ leftover hot meals. These RC soldiers acknowledged that they had
       plenty of MREs.


                                               28
    •   Food Rationing: Soldiers in 1 of the 23 RC sensing sessions (4%) were deployed to
        several different sites in Iraq and Afghanistan in 2002. They reported a shortage of Army
        cooks and cold storage at the Army-operated DFAC at Kandahar Air Base, Afghanistan.
        This caused problems with the availability and quality of hot meals at the facility. (There
        were MREs available.) These soldiers noted that the quantity, quality, and variety of hot
        food was better at the Air Force operated DFAC at Bagram. They also noted that the
        food quantity and quality at the Army operated facility improved during their tour. The
        Army DFAC later transitioned to a contractor operated facility.
    •   Food-Related Illness: Soldiers in 2 of the 23 RC sensing sessions (9%) reported one
        instance of wide-spread illness, reportedly caused by improper food preparation for the
        2002 Thanksgiving meal at Camp Arifjan, Kuwait.

State Adjutants General and Commander, Regional Readiness Commands (RRCs)
Questionnaire Results—Food and Food Service

Questionnaire results from State Adjutants General and Commanders of USAR Regional
Readiness Commands paralleled the comments noted above and are summarized in Appendix C.

Other Evaluation Results
Overview: During the early phases of OEF and OIF, many soldiers subsisted on the
combat/contingency ration known as Meal, Ready to Eat (MRE). This ration is relatively light
weight and requires minimal preparation, providing the required nutrition to sustain soldiers in
combat for extended periods. When the security situation permitted, the MREs were
supplemented/replaced with the frozen or semi-perishable Unitized Group Ration (UGR). The
UGR offers seven breakfast menus and 14 lunch/dinner menus. Fifty complete meals are packed
together in the UGR. The MREs and the UGRs are collectively referred to as operational
rations. 8 Although there was never a shortage of operational rations during OEF/OIF, some
soldiers stated that their mission required them to subsist only on MREs for a period longer than
21 days. While exceeding 21 days of MRE-only nutrition is a deviation from policy in Army
Regulation 40-25, there were no reported health problems resulting from these occurrences. 9

Within six months of entry into a combat theater, Army policy is to feed soldiers out of
contractor-operated dining facilities (DFACs), using a 21-day hot meal menu cycle--security
permitting. According to Army Logistics Civil Augmentation Program (LOGCAP) officials,
there were 6 such DFACs in Afghanistan and 16 in Iraq by August 2003. As of May 2005, there
were 9 DFACs in Afghanistan, 63 in Iraq, and 9 in Kuwait. The chart below is an example of
progress, over time, with regard to DFACs in IRAQ.




8
  Operational rations are used to feed individuals performing duty in time of war or other contingencies. They are
also used in peacetime for emergencies, travel, and training. DSCP purchases these rations only from U.S. and other
approved suppliers.
9
   AR 40-25, paragraph 2-2b states “The MRE can be consumed as the sole ration for up to 21 days. After 21 days,
other appropriate rations…will be included in the daily mix of rations.”
                                                        29
                                                          DFACS in Iraq
                         80

                         60

                         40                                                                             DFACS


                         20

                          0
                               Aug- Sep- Dec- Mar- Jun- Sep- Dec- Mar- May-
                                03   03   03   04   04   04   04   05   05
                      DFACS      16    27     30     30     39     39     39     63     63



Food Products Contract/Food Service Contract--Afghanistan: In Afghanistan, the Defense
Logistics Agency’s Defense Supply Center-Philadelphia (DSCP) supplied a full line of food
products to DFACs in Afghanistan through a subsistence prime vendor contract with Bahrain
Maritime and Mercantile International, beginning in August 2002 through December 2003. 10
Seven Seas Shiphandlers became the subsistence prime vendor in January 2004. Food service
operations at the DFACs in Afghanistan have been provided by Kellogg, Brown and Root (KBR)
under the Army Logistics Civil Augmentation Program (LOGCAP). As of November 2004,
KBR was operating nine DFACs in Afghanistan. The Air Force was operating one additional
DFAC with military staff.

Food Products Contract/Food Service Contract—Iraq/Kuwait: At the commencement of
OIF, and during the first several months of operations in Iraq, U.S. and coalition forces were
subsisting primarily on operational rations, e.g., MREs, semi-perishable Unitized Group Rations
and perishable A Rations. These rations were supplemented by fresh fruits and vegetables, dairy
products and bottled water. Through May 2003, KBR provided all food products, as well as
food service operations under the Army LOGCAP contract, at DFACs in Iraq and Kuwait.

Responsibility for supplying food to the DFACS in Kuwait and Iraq was transferred from KBR
when DSCP awarded a new subsistence prime vendor contract for the Middle East to The Public
Warehousing Company (PWC) on May 28, 2003. KBR was contractually obligated to provide
all food products, as well as DFAC operations, until February 2004. At that time, PWC began
supplying all food products to the DFACs in Baghdad. While KBR continued to operate the
DFACs in Iraq, in June 2004, Tamimi Global Company started food service operations at the
DFACs in Kuwait. As of May 2005, 90 percent of all DFACs in Iraq and Kuwait were offering
the Army-designed 21-day menu cycle, according to the Army Food Advisor.

Subject Matter Expert Comments: According to the Army National Guard Food Advisor,
KBR, the LOGCAP contractor, initially hired Iraqi local nationals as they began to open and
operate DFACs in Iraq from April to July 2003. KBR quickly found problems with pilfering,

10
   Subsistence prime vendors provide dining facility managers with a full line of fresh, frozen, and packaged food
items, as well as the non-food items, needed to offer a wide range of entrees, short order foods, salad bar, desserts,
and beverage choices.
                                                          30
accountability of food items, Iraqi employees who could not be trusted, and employees who were
not properly trained in food handling, preparation, and service. Iraqi employees were not
reliable, quitting with little or no notice. KBR now hires primarily third country national food
service employees, finding them better trained and less apt to quit.

Actions Taken/Proposed

DSCP solicitations and contracts with operational rations suppliers and subsistence prime
vendors contained extensive quality assurance requirements (inspections). Given the general
lack of food related illness and relatively few/minor complaints from questionnaire respondents
and sensing session participants, it appears that the food/food service quality assurance effort in
the CENTCOM AOR was successful. Some of the elements of this quality assurance program
are described below.

Operational Rations Inspections: There were extensive quality assurance requirements in the
DSCP solicitation and resultant contracts for operational rations with approved U.S. food
suppliers listed on the Directory of Sanitarily Approved Food Establishments for Armed Forces
Procurement or another Federal or Army directory. DCSP evaluated the contractors’ quality
system plans and either the U.S. Department of Agriculture or DoD Veterinary Service Activity
inspectors verified their inspection procedures. Also, DoD Veterinary Service Activity
inspections of operational rations in the CENTCOM AOR were being performed and
documented in accordance with DSCP Handbook 4155.2, “Inspection of Composite Operational
Rations.” In addition, according to the Army Food Advisor, MRE menu choices were
systematically being reviewed and changed each year.

PWC Food Product Inspections: Extensive quality assurance procedures were also contained
in the DSCP Subsistence Prime Vendor solicitation and resultant contract with PWC. For
example, the rejection procedures in the contract stated that:

       “When product is found to be non-conforming or damaged, or otherwise suspect, the receiving
       official shall reject the item and/or determine the course of action to be taken with the product in
       question. If present, the Contracting Officer’s Representative (COR) may be consulted. The final
       decision is to be made by the receiving official.”

The Subsistence Prime Vendor informs DSCP of the rejected food products in a Monthly
Rejection Report. According to DSCP managers, veterinary specialists at DFACs in the
CENTCOM AOR documented food product inspections on DD Forms 1232, “Quality Assurance
Representative’s Correspondence.” The veterinary specialists submitted these forms the DSCP
European office in Germany.

KBR Food Service Inspections: Army, Navy, or Air Force preventive medicine specialists, in
accordance with Army Technical Bulletin MED 530, “Occupational and Environmental Health
Food Sanitation,” inspected KBR’s operation of the DFACs in the CENTCOM AOR. We
reviewed samples of completed DD Forms 5161 “Comprehensive Food Service Inspections,”
that documented the results of quarterly inspections, including facility cleanliness, staff hygiene,
proper food storage and handling, cold storage temperatures, and serving line temperatures. As
of November 2004, the U.S. Army Center for Health Promotion and Preventive Medicine
(USACHPPM) had received and archived more than 300 DD Forms 5161 and other inspection

                                                       31
reports documenting sanitary conditions at 10 sites in Afghanistan and three sites in Iraq.
However, the USACHPPM was not evaluating or analyzing these reports to determine trends in
food safety/sanitation risk and the possible need for changes, as described in Army Technical
Bulletin MED 530.

Identified problems, such as the spoilage rate of fresh fruits and vegetables in Iraq, the need for
more storage capacity at the DFACs, truck turnaround times, and the need for performance
metrics were also being discussed in frequent video teleconferences and weekly conference calls
with the Army Food Advisor and his representatives in theater, CENTCOM, DSCP officials, the
Subsistence Prime Vendor, DFAC managers, and others. CENTCOM Deployment Distribution
Operations Center at Camp Arifjan, Kuwait, documented and tracked the status of action items
and “Hot Topics.”

Conclusions

The preponderance of the evidence gathered from RC and AC soldiers and units that responded
to our questionnaires and participated in our sensing sessions indicates that food and food service
was adequate in Afghanistan, Kuwait, and Iraq. Again, the preponderance of the evidence
indicated that there was no systemic disparity between the food and food service support
provided to RC and AC soldiers and units. While there were isolated instances of temporary
shortages and inadequate food service, such conditions are well within the realities of a combat
zone environment. The food/food service quality assurance program was adequate and
functioned in accordance with Army and DSCP policies.

Observation

The U.S. Army Center for Health Promotion and Preventive Medicine (USACHPPM) was not
providing feedback on food safety and sanitation risks resulting from their analysis of DD Forms
5161, “Comprehensive Food Service Inspections,” and other food inspection reports to
LOGCAP and DoD Veterinary Service officials in the CENTCOM Area of Responsibility.

Recommendations

1. The Commander, USACHPPM, should:

   a. Publish guidance on evaluation/analysis of DD Forms 5161, “Comprehensive Food
Service Inspections,” and other food inspection reports, as required by Army Technical Bulletin
MED 530.
   b. Establish procedures for corrective implementing recommendations derived from the
evaluation/analysis of food service reports.

2. LOGCAP and the DoD Veterinary Service Activity should establish a quality assurance
procedure to track corrective action(s) for USACHPPM identified food service deficiencies.


                                     Return to Table of Contents


                                                32
Chapter 4--Medical Care
Objective: To determine whether units that deployed to Afghanistan, Iraq, and Kuwait
received adequate medical and dental care and if any disparity existed between RC and AC
soldiers.

Standards/Criteria for Medical Care

The following table and short synopsis of each publication established the standards/criteria that
were used to determine the adequacy of medical care in a combat theater. These standards/
criteria apply equally to Active Duty, National Guard, and U.S. Army Reserve soldiers. Those
publications listed in black were the basis for in-theater medical care in support of Operation
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) through March 2003. Those in
blue have been updated/published since that time, incorporating changes and any applicable
lessons learned from OEF/OIF.

                         Table 4--Standard Criteria for Army Medical Care.

PUBLICATION                 TITLE                                 DATE
DoD Instruction 6490.3      Implementation and Application of     August 7, 1997
                            Joint Medical Surveillance for
                            Deployments
Army Medical                Medical/Dental Support to Annual      October 8, 1999
Command (MEDCOM)            Training
Regulation 40-40
Joint Publication (JP) 4-   Doctrine for Health Service Support   July 30, 2001
02                          in Joint Operations
JCS Memo-MCM-0006-          Updated Procedures for Deployment     February 1, 2002
02                          Health Surveillance and Readiness
Army Regulation (AR)        Army Command Policy                   May 13, 2002
600-20
USCENTCOM OPLAN             Annex Q: Medical Services             February 27, 2003
1003V—Change 1
Army Field Manual           Health Service Support in Corps and   February 2004
(FM) 4-02.12                Echelons Above Corps
DoD Directive 6490.2        Comprehensive Health Surveillance     October 21, 2004



DoDI 6490.3, “Implementation and Application of Joint Medical Surveillance for Deployments,”
August 7, 1997, prescribes implementation procedures and assigns responsibilities for joint
military medical surveillance in support of all military operations in an attempt to expand the
concept of joint medical surveillance. Requires the Army, Air Force, and Navy to conduct
medical surveillance and report the results to a central database that is available to the Joint Task
Force surgeons during contingencies.

Army Medical Command (MEDCOM) Regulation 40-40, “Medical/Dental Support to Annual
Training,” October 8, 1999, was used as a planning reference for medical operations in theater.



                                                        33
 Joint Publication (JP) 4-02, “Doctrine for Health Service Support in Joint Operations,” July 30,
 2001, designated the Army as the Executive Agent in Joint Medical operations and delineated
 the Theater Surgeon as the responsible officer to determine health service support.

 JCS Memo, MCM-006-02, “Updated Procedures for Deployment Health Surveillance and
 Readiness,” February 1, 2002, provides standardized procedures for assessing health readiness
 and conducting health surveillance in support of all military deployments. Occupational and
 environmental surveillance procedures are also included.

 Army Regulation (AR) 600-20, “Army Command Policy,” May 13, 2002, provides the authority
 for the Hospital Commander to direct medically appropriate care for soldiers. The regulation
 states that the hospital commander, in the absence of the soldier’s commander, may order the
 soldier to receive emergency care when the Hospital Commander deems it necessary

 USCENTCOM OPLAN 1003V- CHANGE 1, Annex Q, “Medical Services”, February 27, 2003,
 (applicable to both OEF and OIF) says the mission of the medical forces is to deploy the
 appropriate Health Services Support (HSS) resources and infrastructure to the area of operations
 to minimize the effects of wounds, injuries, and diseases on unit effectiveness, readiness, and
 morale. The Concept of Operations “…employ an early, forward, and responsive Force Health
 Protection and disease surveillance system…clear the battlefield of patients; stabilize patients
 using forward light surgical teams and medical intervention; and move patients rearward for
 hospitalization or return to duty.”

 Army Field Manual (FM) 4-02.12, “Health Service Support in Corps and Echelons Above
 Corps,” February 2004, provides the latest update to Army medical doctrine.

 DoD Directive 6490.2, “Comprehensive Health Surveillance,” October 21, 2004, dictates that
 military health surveillance is an important element of Force Health Protection and that DoD
 Components shall conduct comprehensive, continuous, and consistent military health
 surveillance. This surveillance shall encompass periods before, during, and after deployments.
 This Directive designates the Secretary of the Army as the Executive Agent for the Defense
 Medical Surveillance System.

Results of the Survey/Sensing Sessions

 Overview: Overall, the results of 112 unit questionnaires from RC and AC units indicate that
 the quality of medical care in the CENTCOM AOR was adequate. In summation of the
 questionnaires, only 18 units out of the 112 RC and AC units that responded expressed
 dissatisfaction with some aspect of medical or dental care (16%). During sensing sessions, there
 was a qualified dissatisfaction with the quality of medical and dental care. Twenty-one out of
 the 27 (78%) RC and AC units had negative responses during sensing sessions. However, the
 majority of these sensing session complaints were minor in nature. For instance, minor negative
 responses mentioned (1) disagreements with diagnoses, (2) a perception that Abu Ghurayb
 prisoners were given higher priority than soldiers, (3) little medical and dental care available, and
 (4) a loose tooth took three months to correct. Some of the more serious negative responses
 expressed during sensing sessions were (1) an alleged misdiagnosed broken arm without an x-
 ray, (2) an alleged misdiagnoses of appendicitis, and (3) a hernia left untreated for over one

                                                  34
week. Nevertheless, CENTCOM Surgeon General contacts assert that standards for deployment
for CENTCOM AOR medical resources were met. This feedback, coupled with no evidence of
systemic problems in obtaining medical care, supports a conclusion that in-theater medical and
dental care was adequate.

Unit Questionnaire Results—Medical Care 11

The following statements characterize the responses from the 112 RC and AC unit
questionnaires that were completed by commanders/first sergeants:

      •   One RC unit said that they were not allowed to use the 101st Airborne’s Combat Support
          Hospital and had to go across the base to another facility.
      •   Three RC units said that soldiers could not get routine dental care. (In fact, routine dental
          care was offered to RC and AC soldiers permanently stationed in Kuwait, but was only
          sporadically available to RC and AC soldiers temporarily deployed in Afghanistan and
          Iraq. When routine dental care was offered in Afghanistan and Iraq, it was contingent on
          the security situation and on a space-available basis.)
      •   One RC unit said that they received a 90-day supply of daily use medication (e.g., high
          blood pressure) while the AC got 180-day supply. (RC and AC soldiers were to have
          a180-day supply of chronic condition medications as they deployed in to the CENTCOM
          AOR. RC soldiers were supposed to arrive at the mobilization stations with a 90-day
          supply of those medications already in their possession. They would then be issued an
          additional 90-day supply to meet the 180-day requirement. However, Army policy
          requires all soldiers deploy with a 180 supply of appropriate medication, regardless of
          how much they have when they report to the mobilization station.
      •   Two RC units made general statements about perceived poor quality care and
          misdiagnoses.
      •   One RC unit said that their medical treatment facility (MTF) lacked MRI and glaucoma
          test equipment. (MRI and glaucoma test equipment is not normally allocated to MTFs in
          the forward combat zone.)
      •   One RC unit said their MTF could not electronically update medical records. (The ability
          to electronically update medical records is a capability not currently available in all
          MTFs in the forward combat zone.)

Sensing Session Results—Medical Care

The following statements characterize the responses from the 27 RC and AC sensing sessions:

      •   Soldiers in 5 of the 23 RC unit sensing sessions (22%) and 0 of 4 AC sensing sessions
          had negative comments about dental care. (RC soldiers are required to have an annual
          dental examination to ensure dental fitness. The mobilization station reviews the RC
          soldiers’ dental records and conducts an additional examination, if deemed necessary. If
          the RC soldier has dental problems that are sufficient to make him/her non-deployable
          and these dental problems cannot be corrected in 25 days, the RC soldier can be released
          from active duty and sent home. If the soldier’s dental condition has a favorable

11
     Some units provided more than 1 negative comment about medical or dental care.
                                                        35
       prognosis and is expected to be at least Dental Class II by the time of deployment, the
       government can retain the individual on active duty.) In 2 of the sessions, RC soldiers
       perceived that AC soldiers were afforded routine dental care while they were not. (In
       fact, routine dental care was offered to RC and AC soldiers permanently stationed in
       Kuwait, but was only sporadically available to RC and AC soldiers temporarily deployed
       in Afghanistan and Iraq.)
   •   In 2 of the sessions, RC soldier’s perception was that they were given Motrin for all
       illnesses.
   •   In 2 of the sessions, RC soldiers perceived that treatment for non-combat related
       injuries/illnesses was delayed. (Patients are scheduled for treatment through a triage
       process. This priority is not based on whether the illness/injury is combat-related or non-
       combat related. The priority is established based on who requires, and who will benefit
       most from the available medical capabilities. Depending on the security situation at any
       given MTF location, non-emergency/routine medical treatment may be delayed.)
   •   In 2 of the sessions, RC soldiers reported a shortage of medical supplies and equipment.
       They also reported being told by MTF personnel that they would receive medical
       treatment in the U.S. during demobilization or by the Veterans Administration upon
       return to home station. We received reports that, in some instances, the soldiers were
       silent regarding their medical problems so as not to delay return to their home. After
       returning to their home unit in U.S., the soldiers then began to raise the medical
       injury/illness concern.
   •   One soldier in 1 session alleged “misdiagnosis [occurring] on a daily basis.” However,
       the respondent was unable to offer specific verifiable examples or articulate how he was
       able to make these medical judgments.
   •   Although not counted as negative responses, in all 4 of the sensing sessions with AC
       units, a few soldiers reported that medical personnel were not able to keep up with
       maneuver elements during the early stages of OIF in Iraq. Another comment was
       “inadequate refrigeration for medicines.” As a result, soldiers were evacuated for minor
       medical problems.

State Adjutants General and Commander, Regional Readiness Commands (RRCs)
Questionnaire Results—Medical Care

Questionnaire results from State Adjutants General and Commanders of USAR Regional
Readiness Commands paralleled the comments noted above and are summarized in Appendix C.

Other Evaluation Results

Overview: The Military health service support system is designed to be a single integrated
system that reaches from the combat zone in theater to the Continental United States (CONUS).
The system is a continuum of care in which a soldier contracting a disease or injured on or off
the battlefield will be provided a full range of services, from initial first aid in theater to
definitive care at a fixed facility within CONUS or outside of the continental United States
(OCONUS). The levels of care extend rearward throughout the theater and depend on a reliable
evacuation system. Army Field Manual (FM) 4-02.12, “Health Service Support in Corps and
Echelons Above Corps,” provides the following definitions:


                                               36
Level I: Unit-level health care includes the first treatment a soldier receives and evacuation from
the point of injury or illness to the unit’s aid station (self-aid, buddy-aid, combat medic, battalion
aid station).

Level II: Division-level health service support that includes evacuating patients from the unit-
level aid stations and providing initial resuscitative treatment (medical companies, support
battalions, medical battalions, and forward surgical teams).

Level III: Corps-level health service support includes evacuating patients from supported units
and providing resuscitative and hospital care. Level III includes providing area support within
the corps’ area to units without organic medical units (Mobile Army Surgical Hospitals (MASH),
Combat Support Hospitals (CSH), Evacuation Hospitals (EVAC) and Field Hospitals (FH)).

Level IV: Communications zone-level health service support including receipt of patients
evacuated from the corps. This echelon involves treating the casualty in a general hospital and
other communications zone level facilities for treatment to stabilize them for their evacuation to
CONUS.

Level V: The definitive care provided to all patients in CONUS and OCONUS Army Hospitals.
The CONUS-sustaining base is where the ultimate treatment capability for patients resides,
including full rehabilitative care and tertiary-level care.

Routine sick call: Procedures that involve the patient self-identifying the need for medical care
and identifying the symptoms of a sickness or injury to medical providers. In theater, a soldier
presents him/herself to the level II Military Treatment Facility (MTF).

Joint Force Surgeon: In theater the Combatant Command Joint Force Surgeon (JFS) is
responsible for coordinating and integrating Health Service Support (HHS) in the theater. The
JFS is tasked to organize medical assets assigned to his/her AOR. The deployable Army force
consists of units and personnel from both the Active Component and the Reserve Components,
with 75% of its wartime structure organized in the Reserves. DoD Directive 6490.2 mandates
that the Army, as the Executive Agent for the Defense Medical Surveillance System, will
provide the supporting work force for the US Army Center for Health Promotion and Preventive
Medicine (USACHPPM). The Directive mandates that the Army will collect all DoD
deployment occupational and environmental health surveillance data and reports. Although the
DoD Directive 6490.2 also discusses Defense Medical Surveillance System data, it does not
designate where the Defense Medical Surveillance System data is collected and interpreted.
Without a designated location to consolidate and evaluate this medical data, there is no defined
method for DoD/Army to document and evaluate the adequacy of medical care.

Army Medical Planning: Army sources state that Army
Medical Command Regulation 40-40 was used as a
planning document for the medical efforts in Operation
Iraqi Freedom. Medical support during OIF complied with
Army Medical Command Regulation 40-40 and Annex Q
of the CENTCOM OPLAN. However, a methodology to
measure patient care directly was not part of the planning
process and no metrics were developed to do so. Without
                                                 37
a direct reference, Army Regulation 600-20 implies the hospital commander has the final
authority to decide appropriate level of care for patients. CENTCOM officials stated that
medical planning is a continuous process—one that is sensitive to changing situational and
operational requirements.

In Iraq, Combat Support Hospitals, or their Navy and Air Force equivalents (level III medical
facilities), are spread out over six locations, and are augmented with more than 30 level II
medical facilities. These level III medical facilities have a limited ability to “treat, recover, and
return to duty” on site. However, this capability is limited because of available bed space.

In Afghanistan, there is one level III medical facility (spread out over three locations) and seven
level II medical facilities. Lacking any information to the contrary, the patient evacuation
system in Afghanistan is apparently working well and critically injured soldiers are expeditiously
air-evacuated to Landstuhl Regional Medical Center and CONUS.

CFLCC Battle Update Assessment Briefings: These briefing charts cover several aspects
related to the care of patients. However, the CFLCC Surgeon has no one metric to measure and
report the quality of medical care provided to patients in theater. Currently, there is no
requirement to measure medical care directly rendered to patients in the CENTCOM AOR. The
difficulty in measuring contingency operation medical care stems from the fact that the
evaluation of the appropriateness of medical care is usually rendered by medical providers doing
a peer review of medical records. Since a peer review of medical appropriateness requires a
board of providers, minutes, and other administrative procedures, a timely peer review may be
impossible to achieve in a combat setting. Additionally, a peer review may be postponed for a
later date, after combat has subsided or ended. However, a metric directly measuring medical
care provided to patients would be useful to the theater combatant command surgeon and the
Surgeons General of the Military Services as they evaluate medical support in theater.

Subject Matter Expert Comments: Authoritative personnel in the CFLCC Surgeon’s office
stated that they are satisfied with the overall medical care in theater.

Actions Taken/Proposed

While medical care in-theater was adequate, with no evidence of disparity between RC and AC
soldiers, there were issues regarding medical care of wounded or ill RC soldiers on their return to
medical facilities in CONUS. While wounded or ill AC soldiers were usually in military medical
facilities on a base that was close to their families, recovering RC soldiers were often in medical
facilities that were far-removed from their homes and families. The Army has implemented the
following procedures to improve the overall access and quality of medical care for RC soldiers.

   •   The Army instituted Community-Based Health Care Organizations (CBHCOs) to provide
       medical care close to home for wounded or ill reserve component soldiers on active duty.
       The Army can send the wounded/ill RC soldier to a CBHCO close to his unit or home.
       Currently, the Army has programs in Florida, Arkansas, Wisconsin, Massachusetts,
       Alabama, Virginia, Utah, and California. The Army is also developing plans for
       additional CBHCOs in Hawaii, Alaska, and Puerto Rico. The ARNG operates the
       CBHCOs with one USAR Liaison officer at each location. The Army designated

                                                  38
       FORSCOM as the executive agent for all soldiers, RC or AC, whose wounds/illness will
       require an extended recovery period (medical holdover). In the case of RC soldiers, they
       are retained on active duty during this recovery period. Therefore, FORSCOM has
       command and control for the CBHCOs; however, Army Medical Command (MEDCOM)
       has oversight for medical care, whether at the MTF or remote locations. The National
       Guard Bureau (NGB) publishes a Patient Tracking Report twice a week and posts it to
       Guard Knowledge Online (GKO). State G1 personnel have access to the tracking report.
       It also includes a page with all the MTF Patient Administrative points of contact (POCs)
       and all the ARNG Regional Medical Command POCs.

   •   The Army G1 is developing policy to implement the Medical Retention 2 Program
       (MRP2). There have been instances where soldiers were returned to RC status through
       the demobilization process while they still had legitimate, contingency-related health care
       issues. The reasons for this include: early-on policy that may have been ambiguous,
       soldiers withholding information to expedite their return home, perceived pressure on
       mobilization stations to reduce medical holdover numbers, alleged bias on the part of
       decision makers, and unrealistic expectations on the part of the soldiers. The MRP2 will
       allow RC soldiers to appeal their RC status, asking to go back on active duty in a medical
       retention status to address their legitimate health care problems.

   •   Tricare is the Health Maintenance Organization (HMO) for service members and their
       families. Tricare benefits have improved significantly for Reservists. The National
       Defense Authorization Act (NDAA) for fiscal 2005, signed by the President October 28,
       2004, improves the overall health benefits available to guardsmen, reservists and their
       families. Eligible Reserve Component members with delayed effective date orders that
       will call them to active duty for more than 30 days are authorized Tricare eligibility for
       up to 90 days prior to the sponsor’s activation date. This coverage is also extended to
       their families. It also makes permanent a 180-day transitional Tricare health benefit for
       RC sponsors and their families, after demobilization, through the Transitional Assistance
       Management Program (TAMP). Members must also now receive a comprehensive
       physical examination prior to separating from active duty service. On March 24, 2005,
       DoD announced a plan to further extend Tricare health insurance benefits to reservists
       who (1) were called to active duty under Title 10 in support of a contingency operation
       for more than 30 consecutive days on or after the 9/11 terrorist attacks and (2) served
       continuously on active duty for 90 days or more under such call or order and (3), agree to
       continue serving in the reserves. The new system, known as Tricare Reserve Select, is
       designed to cover personnel who are without a civilian health insurance plan as they enter
       or leave active duty. For every 90 days of active duty service, Guard and Reserve
       personnel are eligible for one year of Tricare coverage for a modest fee. For example,
       personnel who have served two years of active duty are eligible for eight years of health
       coverage. The coverage will be applied retroactively to those called to active duty since
       9/11.

GAO began a new audit in October 2004 reviewing the health status of reservists ordered to
active duty in support of Operation Enduring Freedom and Operation Iraqi Freedom, which is a
mandate in section 732 of the 2005 NDAA. The objectives for the review are as follows:


                                               39
       (1) To what extent were reservists determined to be medically unfit when called to active
           duty?

       (2) What effects, if any, did the health status of activated reservists have on logistics
           planning and deployment schedules for Operations Enduring Freedom and Iraqi
           Freedom?

       (3) To what extent did military personnel comply with DoD policies that assess the
            medical and physical fitness of activated reservists?

       (4) What was the extent, if any, of medical care provided to activated reservists in
           theater as a result of preexisting conditions that were not addressed prior to
           deployment?


Conclusions

The preponderance of the evidence gathered from RC and AC soldiers and units that responded
to our questionnaires and participated in our sensing sessions indicates that medical care was
adequate in Afghanistan, Iraq, and Kuwait. Although there were isolated instances and concerns,
there is no systemic evidence of disparity between RC and AC soldiers.

Observations

1. DoD Directive 6490.2, DoD Instruction 6490.3, and JCS Memo-MCM 006-02 discuss the
Defense Medical Surveillance System (DMSS) and require the Army to collect, store, and
analyze that data, as it does with DoD deployment occupational and environmental health
surveillance data and reports. The Army operates the DMSS through the Army Medical
Surveillance Activity (AMSA). AMSA monthly publishes summaries of medical surveillance
findings.

2. There was no metric for evaluating the actual medical care given to any particular patient as is
required by Joint Publication 4-02. However, as always, individual providers are responsible for
patient care standards.

3. Directly evaluating medical care given to soldiers in a contingency environment may be
extremely difficult.

4. In-theater medical surveillance data is not being used to monitor patients.


Recommendations

1. The Army Surgeon General should identify what elements comprise appropriate medical care
in a combat theater and how those elements should be compiled and reported.



                                                40
2. The Army Surgeon General should establish metrics that measures the quality of medical
treatment rendered to the individual patient in the combat theater.

                                 Return to Table of Contents




                                             41
Chapter 5—Ability to Communicate with Family Members
Objective: To determine whether units that deployed to Afghanistan, Iraq, and Kuwait had a
reliable ability to communicate with family members and if any disparity existed between RC
and AC soldiers.

Standards/Criteria for Telephone and Internet Communications With Families
From a Combat Theater

The following table and short synopsis of each publication established standards/criteria for
commanders to use as a basis to develop procedures for soldier’s to communicate with family
members while deployed. These standards/ criteria apply equally to Active Duty, National
Guard, and U.S. Army Reserve soldiers. Those publications listed in black were in effect during
Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) through March
2003. Those in blue have been updated/published since that time, incorporating changes and any
applicable lessons learned from OEF/OIF.


Table 5—Standards/Criteria for Telephone and Internet Communications with Family
Members from a Combat Theater

PUBLICATION                         TITLE                                                   DATE
DODD 1015.2                         Military Morale, Welfare, and Recreation                June 14, 1995
                                    (MWR)
Department of Defense Instruction   Programs for Military Morale, Welfare, and Recreation   Nov 3, 1995
(DODI) 1015.10                      (MWR)
Army Regulation (AR) 25-1           Army Information Management                             May 31, 2002
                                                                                            (Superseded June
                                                                                            2004)
Army Regulation (AR) 25-1           Army Knowledge Management And Information               June 2004
                                    Technology Management
AR 215-1                            Morale, Welfare, and Recreation Activities and          December 1, 2004
                                    Nonappropriated Fund Instrumentalities




DODD 1015.2, “Military Morale, Welfare, and Recreation (MWR)”, June 14, 1995. This
regulation establishes DoD policies for operating and managing DoD military MWR programs.
It states that the DoD Components shall provide a well-rounded MWR program that contributes
to mission readiness and improves productivity through programs promoting fitness, esprit de
corps, and quality of life.

DODD 1015.10, “Programs for Military Morale, Welfare, and Recreation (MWR),” November
3, 1995. This instruction implements policy, assigns responsibilities, and prescribes procedures
under DoDD 1015.2 for operating and managing programs for military MWR. It states that DoD
Components will provide MWR programs to deployed units that meet needs for unit cohesion
and individual stress relief.

                                                     42
Army Regulation (AR) 25-1, “Army Information Management,” May 31, 2002. This regulation
establishes policies and assigns responsibilities for information management and information
technology. It provides for health, morale, and welfare (HMW) communications by
military/DoD employees who are deployed for extended periods of time.

Army Regulation (AR) 25-1, “Army Knowledge Management and Information Technology
Management,” June 2004. This regulation supersedes the May 31, 2002 version of AR 25-1 and
revises the title. It prescribes additional policy on e-mail use, authorizes limited use of cell
phones, and further expands the authorized use of HMW communications.

AR 215-1, “Morale, Welfare, and Recreation Activities and Nonappropriated Fund
Instrumentalities,” December 1, 2004. This regulation implements DOD and congressional
policies. It contains administration, operation, and management policies governing the Army’s
morale, welfare, and recreation activities and nonappropriated fund instrumentalities. In Chapter
2, under “Responsibilities”, it states that “Garrison commanders will plan for MWR support
during mobilization, wartime, and contingency operations.”

Results of the Survey/Sensing Sessions

Overview: The results of 112 unit questionnaires from RC and AC units revealed that access to
internet and telephone communications in the CENTCOM AOR depended upon where you were
and when you got there. There were 1 or more negative comments about ability to communicate
with family in 41 of the 112 units responding to the questionnaire (37%). In 31 of the 72 RC and
10 of the 40 AC unit questionnaires (43% and 25%, respectively), respondents commented on
the lack of phones/computers, quality of service, and the waiting time for use. There were 1 or
more negative comments about access to communications in 12 of the 23 RC and in all 4 of the
AC sensing sessions (52% and 100%, respectively).

Unit Questionnaire Results—Communication with Family

The following statements characterize the responses from the 112 RC and AC unit
questionnaires that were completed by commanders/first sergeants.

   •   RC units reported inadequate number of phones for the number of troops and long
       waiting lines at certain camps.
   •   Both RC and AC stated internet and phone service connections were not reliable.
   •   Both RC and AC soldiers said that commercial calling cards for the AT&T phone banks
       were expensive.
   •   RC soldiers at some camps purchased local cell phones.
   •   One RC unit’s soldiers said that AC had greater access to Defense Switch Network
       (DSN) lines than they did.

Sensing Session Results—Communication with Family

The following statements characterize the responses from the 27 RC and AC sensing sessions.



                                               43
   •   Both RC and AC reported inadequate number of phones for the number of troops and
       long waiting lines at certain camps.
   •   Both RC and AC soldiers stated DSN connections were unreliable.
   •   RC soldiers stated using commercial calling cards at phone banks was very expensive.
   •   One RC unit’s soldiers said that they were prohibited from using DSN lines for several
       months and another unit said AC had greater access to DSN lines than they did.
   •   Two RC units said that they had to “make friends and make deals with AC soldiers to
       gain DSN access.
   •   RC soldiers at some camps purchased local cell phones.

State Adjutants General and Commander, Regional Readiness Commands (RRCs)
Questionnaire Results—Communication With Family

Questionnaire results from State Adjutants General and Commanders of USAR Regional
Readiness Commands paralleled the comments noted above and are summarized in Appendix C.

Other Evaluation Results

Overview: Army policy gives commanders general guidelines for establishing procedures for
soldiers to communicate electronically with their families while deployed in a combat theater.
Of course, the maturity of the theater and the security situation impact how quickly these
procedures can be established and expanded. During the initial stages of OEF and OIF, the
ability to communicate electronically with family members did not meet the expectations of
today’s soldiers. These expectations were unrealistic in a developing theater with on-going
combat operations.

Effective May 2002, Army Regulation (AR) 25-1, “Army Information Management,” Chapter
6--Command, Control, Communications, and Computers/Information Technology Support and
Services,” paragraph 6-1d cites official and authorized uses of telecommunications and
computing systems. It states, in part, “the use of DoD and other government telephone systems
(including internet) are limited to the conduct of official business or authorized uses.” In
paragraph 6-1d (5), it states, in part, that “health, morale, and welfare (HMW) communications
by military members and DoD employees who are deployed in remote or isolated locations for
extended periods of time on official DOD business may be considered official use of
telecommunications and computing systems. HMW calls may be made only during non-peak,
non-duty hours and should not exceed 5 minutes once per week.” The June 2004 revised version
of AR 25-1 changes the HMW call limit to 15 minutes. The regulation also states that
commanders may authorize calls that exceed this limit and frequency on an exception basis.

AR 25-1 further states that the soldier who wants to make a morale call using government
communications assets should go through his/her chain of command in order to schedule such a
call.

Combined Forces Land Component Command (CFLCC) Goals: The CFLCC Chief of
Policy and Programs (C1) has established a goal in June 2003 to improve the access for soldiers
to communicate with their families. The CFLCC goal included phone centers and Internet cafes
which are available to both RC and AC soldiers. However, we found that AC units brought

                                               44
more communication assets, such as unit-owned desk top and lap top computers, then the RC
units. Early in OEF and OIF, this most likely made it easier for AC soldiers to communicate
with family members than it was for RC soldiers to do so. This may have been attributed to the
AC having more deployment experience, funding, and leadership in theater.

The following are the four primary modes that soldiers in theater used for access to electronic
communication with family members:

       •       Defense Switching Network (DSN)
       •       MWR phone banks through the Army and Air Force Exchange System (AAFES)
       •       Internet cafes (provided by the Navy Space and Naval Warfare Systems
               Command)
       •       Video teleconference calls

Actions Taken/Proposed

The CLFCC has steadily improved their soldiers’ ability to communicate with family members.
As an example, the following chart shows the steady progress made in availability of phones and
internet (e-mail) in Iraq.

 Status of Phones/Computers in Iraq Available for “Communications Home”

                     4000
                     3500
                     3000
                     2500
                     2000
                     1500
                     1000
                       500
                         0
                              3rd Qtr 4th Qtr 1st Qtr 2nd 3rd Qtr 4th Qtr 1st Qtr   2nd    3rd Qtr
                               FY-03 FY-03 FY-04 Qtr FY- FY-04 FY-04 FY-05          Qtr     FY-05
      AAFES Phones *            96     240    624     912    1245   1104    1200    1188    1212
      Internet Computers **             0     300    2780    2800   2800    2800    3560    3720




*Total for phones does not include Defense Switching Network/Voice over Internet Protocol
 (DSN/VOIP) phones.

**These computers are in the Internet Cafes—usually 20 computers per Cafe. These numbers do
  not include internet-capable computers at military work stations.
                                                45
Conclusions

During the initial stages of OEF and OIF, the ability to communicate electronically with family
members did not meet the expectations of today’s soldiers. These expectations were unrealistic
in a developing theater with on-going combat operations. There is no evidence that this issue
impacted the military mission. As the theater matured, the ability to communicate electronically
with family members showed steady improvement. The phone centers and Internet cafes that
AAFES established were for equal use by both RC and AC soldiers. However, we found that AC
units brought more communication assets, such as unit-owned desk top and lap top computers,
then the RC units. Early in OEF and OIF, this most likely made it easier for AC soldiers to
communicate with family members than for RC soldiers.

Observation

The ability for RC and AC soldiers to communicate with their families showed realistic, steady,
and rapid improvement over time, consistent with the security situation at any given location.

Recommendations

None



                                  Return to Table of Contents




                                               46
Chapter 6—Other Issues--After Action Reports
Standards/Criteria for After Action Reports

AR 11-33, “Army Lessons Learned Program: System Development and Application,” October
10, 1989, applies to the active Army, the ARNG and USARC. The guidelines in Appendix B,
“The Wartime Army Lessons Learned Program,” apply Army-wide to include units committed
to any combat deployment. The appendix describes the Center for Army Lessons Learned
(CALL) requirement for a sustained effort to collect relevant observations during combat
operations. The regulation also requires all major Army commands to implement combat
relevant lessons learned. However, the ARNG and USARC are not designated as major Army
commands. 12 Although both ARNG and USARC officials agreed with the value of after action
reports (AARs), there is uncertainty as to whether the provisions of AR 11-33 apply directly to
them.

Results of the Sensing Sessions

Overview: Out of 23 RC sensing sessions, only 2 of the 13 Army National Guard units (15%)
and 2 of the 10 US Army Reserve Command units (20%) reported preparing and submitting
AARs during or following their deployments. None of the commanders or other officials of those
ARNG and USAR units had been instructed to prepare and submit AARs through their chain of
command.

Sensing Session Results—After Action Reports

The following statements characterize the responses from the 23 RC sensing sessions.

Self-initiated AARs were written by three company commanders in a National Guard Battalion.
The AAR from one of the companies contained 43 issues, recommendations or lessons learned.
Major issues are summarized below:

     •   Lack of transition planning that resulted in friction and disparate treatment of incoming
         ARNG soldiers by the outgoing AC soldiers that they were replacing.
     •   No doctrinal mission requirements for which unit members had not been trained or
         equipped.
     •   Lack of Title 10 funds or approval process to obtain equipment essential to perform a
         strategic mission that required civilian clothing.
     •   Delays and errors in receipt of civilian clothing allowance.
     •   Lack of process for tracking medically evacuated soldiers and getting them returned to
         duty.




12
 AR 10-87, “Major Army Commands in the Continental United States,” October 30, 1992, does not list either the
ARNG or USARC as major Army commands.
                                                      47
    •   Lack of “…routine dental care while deployed because there were not enough assets to
        provide dental care for the Reserve Component.” (This was a misconception as there
        were not enough assets to provide routine dental care to early deployed soldiers, AC or
        RC.)

A USAR bridge construction company was among the first RC units deploying to Kuwait and
Iraq in support of OIF from November 2002 to August 2003. The company commander wrote a
comprehensive AAR which described:

   •    Fourteen issues, recommendations or lessons learned concerning USAR procedures,
        policies and support of deployed units. Those issues included pay, promotion, command
        structure, unit readiness, as well as supply and equipment problems resulting from non-
        deployable full-time Active Guard/Reserve (AGR) soldiers.
   •    Seven issues and recommendations concerning the need for armored HMMWVs, more
        handheld radios and other equipment authorization needs.
   •    Sixteen issues and recommendations concerning equipment performance deficiencies.
   •    Five miscellaneous issues and recommendations concerning the realities of performing
        their mission as a Multi-Role Bridge Company under hostile conditions, such as the lack
        of fire arms training during deployment and the use of bridge erection boats to conduct
        river patrols in Iraq.

Actions Taken/Proposed

The Director, Center for Army Lessons Learned, has clarified, in the pending revision to AR 11-
33, that AAR requirements apply to the ARNG and USARC. The final draft of the revised
regulation states that AARs received by the Center for Army Lessons Learned from ARNG and
USAR units will be used to identify ARNG and USAR-unique issues, as well as general Army-
wide issues.

Conclusion

The preponderance of the evidence gathered from RC soldiers and units that participated in our
sensing sessions indicates that RC units, both Army National Guard and US Army Reserve, do
not routinely participate in the established Army Lessons Learned System, as outlined in AR 11-
33.

Observation

When RC units do not actively participate in the Army’s established Lessons Learned System,
the ability of the Center for Army Lessons Learned to collect, analyze, and disseminate lessons
learned during mobilization/demobilization and combat operations is diminished and could lead
to recurring mistakes and deficiencies.

Recommendations

1. The Chief, Army Reserve/Commander, U.S. Army Reserve Command should:
                                               48
         a. Establish procedures requiring all US Army Reserve units mobilized and deployed
in support of contingency or combat operations to prepare and submit AARs, after returning
from deployment, thru their chains of command, to the U.S. Army Reserve Command for
consolidation and forwarding to US Army Forces Command and the Center for Army Lessons
Learned, in accordance with AR 11-33.

         b. Establish a procedure to document and track the status of open action items resulting
from recurring issues, recommendations, or lessons learned, as reported in the AARs.

2. The Director, Army National Guard and State Adjutants General should:

         a. Establish procedures requiring all Army National Guard units mobilized and
deployed in support of contingency or combat operations to prepare and submit AARs, after
returning from deployment, thru their chains of command, to the Director, Army National Guard
for consolidation and forwarding to the Center for Army Lessons Learned, in accordance with
AR 11-33.

         b. Establish a procedure to document and track the status of open action items resulting
from recurring issues, recommendations, or lessons learned, as reported in the AARs.

Management Comments and Evaluation Response

NGB concurred with the AAR recommendations.



                                  Return to Table of Contents




                                               49
Appendix A – Methodology
Scope.

The Department of Defense Inspector General initiated this Crystal Focus project to address the
concerns of 28 members of Congress, as expressed in their November 6, 2003 letter (See
Appendix B). In this letter, they expressed their concerns regarding the treatment, or perceived
treatment, of Reserve Component soldiers as “second-class citizens.” Accordingly, the
evaluation examined mobilization and logistical policies or processes at DoD, the Joint Staff, the
headquarters level of the Army, CENTCOM, and appropriate supporting Defense Agencies. The
specific focus of the evaluation was to:

    1. Assess the adequacy of support to reserve component personnel assigned to CENTCOM
       while serving in Afghanistan, Iraq, or Kuwait during OEF/OIF. The assessment
       specifically focused on the adequacy of potable water, Organizational Clothing and
       Individual Equipment (OCIE), food/food service, medical care, and access to
       communication with family members.

   2. Determine if any disparity existed in support/provision of these commodities/services
      between reserve and active component units.

   3. Document relevant corrective actions completed or planned.

   4. Document relevant statutory changes that have been passed into law, as well as relevant
      legislative bills not yet passed.

Standard.

We performed this evaluation in accordance with the standards established by the President’s
Council on Integrity and Efficiency in the publication “Quality Standards for Inspections”, dated
January 2005.

Work Performed.

   •     Reviewed relevant OSD, Joint Staff, Army, CENTCOM, and Defense Agency policy and
         guidance governing the five focus areas.
   •     Reviewed applicable prior coverage audits, evaluations, and inspections from the past 5
         years associated with logistical support to the RC.
   •     Reviewed current draft reports or studies underway that involved or were related to the
         five focus areas.
   •     Conducted interviews with senior OSD and Military Department officials.
   •     Conducted sensing sessions with units that returned from theater. (See Appendix G for a
         list of organizations visited.)
   •     Distributed a survey questionnaire to Adjutants General of the 54 US states and
         territories, 10 Commanders of Reserve Readiness Commands, reserve component unit
         Commanders and First Sergeants from mobilized units, as well as active component unit

                                               50
       commanders and first sergeants within the Third Infantry Division and 82d Airborne
       Division. Reviewed and analyzed the questionnaire responses.
   •   Reviewed current DoD and Army policy and guidance and proposed drafts.

Sensing Sessions/Questionnaires: During the sensing sessions, we spoke with a total of 198 E-
1s thru E-4s and 165 E-5s thru E-7s. The participants were asked questions related to the five
focus areas. We also surveyed, via questionnaire, State Adjutant Generals, Regional Readiness
Commands, and selected deployed unit commanders and first sergeants. Questionnaires were
also sent to two active component commands for their views on the support issues.

Analysis: The questionnaires were reviewed and summarized for trends/observations. The
purpose was to gather individual soldier perceptions and to determine what information the State
Adjutants and Commanders had gathered on these issues, and whether any actions or
recommendations for action were being considered. A trend analysis was conducted on answers
received from sensing sessions, surveys, and questionnaires. Information was transcribed onto a
matrix to depict graphically the preponderance of evidence (See Appendix C). All
recommendations were discussed with subject matter experts and appropriate points of contact.

Other Actions: The Crystal Focus team discussed the issues with the National Guard
liaison/advisor to CENTCOM. Issues included the concept of operation, benefits and potential
of the Joint Monthly Access for Reserve Components (JMARC) Program relative to oversight of
RC specific concerns/issues within the area of operation (AOR). The CFLCC battle assessment
update briefings were weekly briefings to provide information on the status of logistics for
deployed forces. The presentation used “Stop Light” format presentation (red, yellow, green)
depicting real-time assessment of key support requirements.

Additionally, the team attended the House Committee on Government Reform hearing on
“Transforming the National Guard: Resourcing for Readiness” to determine relevancy to this
Crystal Focus evaluation. The hearing provided information on funding initiatives for RC units.

Prior Coverage:

Department of the Army Inspector General (DAIG) Reports: We reviewed the following
DAIG Reports:

“Special Inspection of the Processes Used to Provide Body Armor to U.S. and Coalition Forces
in OIF and OEF,” December 2003--February 2004. This inspection was directed by the Army
Vice Chief of Staff. The objectives were:

   1. Determine compliance with policies on providing body armor to U.S. forces in OIF and
OEF.

    2. Determine compliance with policies on providing body armor to coalition forces in OIF
and OEF.

The DAIG inspection team identified 13 findings and made recommendations for corrective
action.

                                               51
“Special Inspection of Army Mobilization/Demobilization in Support of Recent and On-going
Operations,” November 2003—June 2004. This inspection was directed by the Army Vice Chief
of Staff. The objectives were:

    1. Assess Army mobilization and demobilization policies and procedures and identify
systemic issues in execution.

    2. Assess mobilization station resources, operations, and efficiency.

    3. Assess RC unit processes and preparedness for mobilization and demobilization.

The DAIG inspection team identified 13 findings or observations and made recommendations for
corrective action.

3rd Army/Combined Forces Land Component Command (CFLCC) Inspection: During the
period of September 10 through October 8, 2003, the 3rd Army/CFLCC Inspector General
conducted a Special "Quick Look" Inspection into the equity application of installation services
for military and civilian personnel assigned or deployed to the CFLCC and located at camps in
Kuwait or Qatar. The inspection was initiated in response to soldiers’ perceptions that
preferential treatment was being applied in the area of installation type services based on a
person's status or component (i.e., deployed (TCS), assigned (PCS), temporary duty (TDY),
active or reserve component).

The "quick look" inspection evaluated local policies and standards associated with installation
type services provided to soldiers deployed to the CFLCC AOR. The inspection focused on the
equity of services provided to assigned and deployed soldiers and civilians (regardless of
component or status), soldiers assigned to ARCENT-Kuwait and ARCENT-Qatar, and CFLCC
soldiers deployed to Kuwait. The specific services that were evaluated included:

           •   Medical and Dental Access and Treatment
           •   Finance Services (service and processing times)
           •   Housing/Billeting Policies
           •   Access to MWR Activities (services and equipment)
           •   DCU and Boot Issue
           •   Laundry Services (specifically sewing services)
           •   Availability of Religious Support Activities

This “Quick Look” inspection resulted in recommendations to improve soldier support and to
ensure RC and AC equity in Afghanistan, Iraq, and Kuwait.

Government Accountability Office Reports: We reviewed The Government Accountability
Office (GAO) reports:

GAO-03-091, “DOD Actions Needed to Improve the Efficiency of Mobilizations for Reserve
Forces,” August 2003. The GAO recommended that the Secretary of Defense require the
Secretary of the Army to develop a standard operating cycle concept to help increase


                                               52
predictability for its reserve units. DoD concurred with this recommendation and conducted a
study to of the AC/RC mix in employing the RC forces.

GAO-03-1004, “Military Personnel, DOD Needs More Data to Address Financial and Health
Care Issues Affecting Reservists,” September 2003. Surveys were conducted to assess healthcare
responses from 47% of RC soldiers. GAO recommended that DoD evaluate the ramifications of
extending TRICARE coverage to reservists not on active duty and their family. DoD concurred
and efforts were initiated for this extended coverage.

GAO-04-1031, “Military Personnel, DOD Needs to Address Long Term Reserve Force
Availability and Related Mobilization and Demobilization Issues,” dated November 2004. GAO
looked at Pre-and Post-Deployment health assessments for the reserve component.

GAO-05-21, “RESERVE FORCES: Actions Needed to Better Prepare the National Guard for
Future Overseas and Domestic Missions,” dated November 2004. GAO assessed the extent to
which the Guard is (1) adapting to meet warfighting requirements in the post-September 11
security environment and (2) supporting immediate and emerging homeland security needs.

GAO-05-275, “Actions Needed to Improve the Availability of Critical Items during Current and
Future Operations,” dated April 2005. This report cited shortages of batteries, tires, vehicle track
shoes, body armor, Meals, Ready to Eat (MREs), HMMWV (High-Mobility Multipurpose
Wheeled Vehicle) with extra armor, and add-on armor kits for HMMWV. Poor in-transit
visibility was cited as a problem related to the MRE shortage. GAO recommended the Secretary
of Defense “develop and exercise, through a mix of computer simulations and field training,
deployable supply receiving and distribution capabilities, including trained personnel and related
equipment for implementing improved supply management practices, such as radio frequency
identification tags, that provide in-transit visibility of supplies, to ensure they are sufficient and
capable of meeting the requirements in operational plans.”

GAO-05-660, “RESERVE FORCES: An Integrated Plan Is Needed to Address Army Reserve
Personnel and Equipment Shortages,” dated July 2005. The report identified the challenges the
Army Reserve faces in continuing to support overseas operations and assessed the extent to
which the Army and Army Reserve have taken steps to improve the Army Reserve’s readiness
for future missions.

Coverage In Process:

In August 2004, the GAO initiated a review called “Army Modularity and its Implications for
Expeditionary Operations and Transformation.” The objectives of this review are to determine:
(1) How a modular combat brigade team-based force structure enables the active Army to
become a more expeditionary fighting force, and how it is being measured; (2) To what extent
modularity will improve the active Army’s combat effectiveness across the full spectrum of
operations; and (3) The implications of modularity for Army and Joint doctrine organizations,
training, personnel, equipment, and transformation plans.

GAO began a new audit in October 2004 reviewing the health status of reservists ordered to
active duty in support of Operation Enduring Freedom and Operation Iraqi Freedom, which is a

                                                 53
mandate in sec. 732 of the 2005 National Defense Authorization Act. This report is scheduled to
be released in 2005.

Continuing Coverage:

The Army Center for Health Promotion and Preventive Medicine (ACHPPM) provided examples
of water point inspections conducted by preventive medicine specialists in the CENTCOM AOR.
As of February 2005, ACHPPM officials had received and archived 2,589 DA Forms 5456-R,
“Water Point Inspection,” and other testing documents. These inspections are required to be
conducted quarterly to ensure safe potable water.

DoD Veterinary Services’ inspections of operational rations in the CENTCOM AOR were being
performed and documented in accordance with DSCP Handbook 4155.2, “Inspection of
Composite Operational Rations.”


                                  Return to Table of Contents




                                              54
Appendix B – Congressional Letter




               55
Appendix B – Congressional Letter (Cont.)




                     56
Appendix B – Congressional Letter (Cont.)




               Return to Table of Contents



                           57
Appendix C – Questionnaire and Sensing
             Session Results

               Summary of RRC Questionnaire “Negative” Responses


                                     USARC       PERCENT
                                                                     COMMENTS
                                      RRC          AGE
                                                                 AC had better supplies
                    DISPARITY                                    and equipment.
                    BETWEEN            6 of 8        75%         RC had jobs not trained
                    RC AND AC                                    for. Limited access to
                                                                 MWR.
                    ADEQUATE
                     POTABLE           2 of 8        25%         Poor taste/quality
                      WATER                                      ROWPU water.
                                                                 OCIE shortages not
                      PROPER           4 of 8        50%
                                                                 filled.
                       OCIE                                      Only 2 sets of DCUs
                                                                 issued.
                    FOOD/FOOD          1 of 8        13%         Meal cycle MRE-
                     SERVICE                                     MRE-MRE.
                     MEDICAL                                     Poor dental support.
                       CARE            3 of 8        38%
                                                                 Medical evacuations
                     (Includes                                   denied.
                      dental)
                    ACCESS TO
                      COMM             3 of 8        38%
                                                                 Not enough computers-
                       WITH                                      -long wait in line.
                     FAMILY


Note: We received responses from USARC HQ and 7 of the 12 Regional Readiness Commands
      (RRCs). The RRCs answers to the questions resulted from a summary of issues that
      they had heard from their deployed or returning units.

RRCs that responded: 63rd, 65th, 70th, 77th, 88th, 94th, 99th.

All RRCs reported that these issues improved over time, resulting in fewer complaints.




                                                  58
             Summary of RC/AC Sensing Session “Negative” Responses*


                                        ACTIVE         AGGREG         PERCENTA
               USAR        ARNG                                                  MAJORITY OF CONCERN
                                         DUTY            ATE             GE
                                                                                          COMMENTS
                                                                                 Some AC soldiers got more
DISPARITY
                                                                                 and better food, better
BETWEEN        2 of 10     8 of 13        0 of 4        10 of 27           37%
                                                                                 medical care, and better
RC AND AC
                                                                                 access to telephones.
                                                                                 RC & AC: ROWPU water
                                                                                 tasted like bleach, too hot to
ADEQUATE                                                                         drink, and perceived to have
                    3of         7 of
 POTABLE                                  4 of 4        14 of 27        52%      caused diarrhea. In early
               10          13
  WATER                                                                          months, bottled water was
                                                                                 rationed--only 2-1.5 liter
                                                                                 bottles per man per day.
                                                                                 Many received only 2 sets of
               10 of 10    13 of 13
                                                         23 of 27                DCUs and only 1 pair of
               6 of the    9 of the
                                                       15 of the 23              desert boots. Some received
  PROPER          10          13          0 of 4                        85%
                                                        received 2               mixed issue, e.g., summer
   OCIE        received    received                                     65%
                                                          sets of                jacket, winter trousers, or
               2 sets of   2 sets of
                                                          DCUs                   boots and DCUs that didn’t
                DCUs        DCUs
                                                                                 fit.
                                                                                 There was an alleged
                                                                                 incident of food poisoning.
                                                                                 There was poor food quality
FOOD/FOOD
               2 of 10     5 of 13        0 of 4         7 of 27        26%      for guards at the Abu
 SERVICE
                                                                                 Ghuraib prison and, in some
                                                                                 cases, the variety of food
                                                                                 was a problem. AC:
                                           0 of 4                                Prisoners had priority over
 MEDICAL                                 All 4 said                              soldiers at Abu Ghuraib.
   CARE                                 they outran                              Lack of proper treatment of
               8 of 10     13 of 13                     21 of 27        78%
 (Includes                                medical                                injury and illness. Some
  dental)                              support early                             complaints were about lack
                                          in OIF                                 of dental service.
                                                                                 DSN was slow and
                                                                                 unreliable--you had to wait
ACCESS TO
                                                                                 in line for hours for a 15
  COMM
               7 of 10     13 of 13       4 of 4        24 of 27        89%      minute call once a week.
  WITH
                                                                                 Not enough computers for e-
 FAMILY
                                                                                 mail and commercial calls
                                                                                 were too expensive.

Note: Sensing Sessions were conducted at the RC/AC units’ home base with units that had
      returned from OEF/OIF in 2003/2004.

* The numbers in this chart reflect sensing sessions, not individual participant responses, i.e. 2
  of 10 is 2 out of 10 sensing sessions.




                                                       59
        Summary of Unit Questionnaire “Negative” Responses—OEF/OIF

                                            RC                  AGGREGA         PERCENT
              USAR                        72 units     A/C          TE            AGE       MAJORITY OF
                           ARNG                                                   Of
               16                            %       40 units    Total 112                    CONCERN
                           56 units                                             CONCER
              units                                     %          unit                      COMMENTS
                                                                                  NS
                                                                                          *RC:
                                                                                          Medical/Dental
DISPARIT
                                                                                          access restricted to
    Y
              7 of 16      13 of 56       20 of 72   2 of 40                              AC soldiers.
BETWEEN                                    28%         5%
                                                                  22 of 112       20%
                                                                                          **AC: Logistic
 RC AND
                                                                                          Support Areas,
   AC
                                                                                          BDE, and DIV had
                                                                                          better food.
ADEQUAT                                                                                   RC & AC:
   E          3 of 16          3 of 56     6 of 72   4 of 40
                                                                  10 of 112       9%
                                                                                          Temperature/bad
POTABLE                                      8%        10%                                taste of ROWPU
 WATER                                                                                    water.
                                                                                          RC: DCU Quantity,
                                                     9 of 40                              sizes and boots,
              9 of 16
                            26 of 56                   23%        44 of 112
 PROPER        5 of 9
                        ***20 of 26 DCU
                                          35 of 72
                                                      4 of 9    29 of 112 DCU
                                                                                  39%     SAPI plates, and
  OCIE         DCU                          49%                                   26%     Flight Gloves. AC:
                             related                  DCU           related
              related
                                                     related                              SAPI plates, and
                                                                                          Flight Gloves.
FOOD/FOO                                                                                  RC & AC: Mostly
              5 of 16      15 of 56       20 of 72   8 of 40      28 of 112
     D                                      28%        20%
                                                                                  25%     about poor variety.
 SERVICE
MEDICAL                                                                                   AC: No dental
   CARE       5 of 16                     14 of 72   4 of 40                              cleaning.
                            9 of 56                               18 of 112       16%
 (Includes                                  19%        10%                                RC: Could not get a
  dental)                                                                                 dental appointment.
                                                                                          RC & AC: Not
 ACCESS                                                                                   enough phones or
TO COMM      11 of 16      20 of 56       31 of 72   10 of 40     41 of 112               computers with
                                                                                  37%
  WITH                                      43%        25%                                internet or phone
 FAMILY                                                                                   cards too expensive.


Note: Responses are from a combination of AC/RC units that were deployed or returned from deployment
      in 2003/2004.

* There was a perception that AC soldiers were afforded routine dental care. However, routine dental
  care was for soldiers assigned (regardless of RC or AC component) to Kuwait and considered
  permanent party. It was afforded to other than permanent party (deployed) RC and AC soldiers on a
  space available basis.

** AC reports of disparity were not “RC versus AC” issues. AC disparity issues generally related to
  “better food” being available to units (RC or AC) that were located in the Logistic Support Areas
  (LSAs), Brigade support areas, and Division support areas.

*** Of the 56 ARNG units, the vast majority deployed in 04. DCUs were no longer an issue. Of the 56
   ARNG units, there were 20 clothing related comments. Fifteen of the 12 (75%) clothing comments
   addressed quantity and size of desert boots.


                                                      60
                    Summary of TAG Questionnaire “Negative” Responses


                           PERCENT        *MAJORITY OF             Note: Questionnaires were sent to
                ARNG
                             AGE           COMMENTS                      the 54 State Adjutant
                                        AC had better                    Generals (TAGs). We
                                        equipment. Dental                received responses from 28
DISPARITY                               afforded to AC only.             TAGs, who polled their units
BETWEEN         17 of 28      61%       AC HQ would not                  that deployed to OEF/OIF.
RC AND AC                               assist on RC problems-
                                        - “too difficult.” RC
                                        slighted on awards.        The TAGs answers to the
                                                                   questions resulted from a
                                        Taste of ROWPU             summary of issues that they had
ADEQUATE                                water. Not enough          heard from their deployed or
 POTABLE         7 of 28      25%       tankers to haul water.     returning units.
  WATER                                 Limited cool water.
                                        Not enough bottled
                                        water.                     States that responded: AR, AZ,
                                        Only 2 sets of DCUs.       CO, CT, FL, HI, IA, IL, IN, KS,
                                        No “off” size boots.       KY, MA, MI, MN, MS, MO, MT,
  PROPER        22 of 28      79%       Not enough SAPI. No        NE, ND, NJ, NV, PR, RI, SD, UT,
   OCIE
                                        goggles for use during
                                        sand storms.               VA, VI, WI,
                                        Poor quality, repetitive
                                        meals.
FOOD/FOOD        8 of 28      29%       Initially, only food
 SERVICE
                                        available was UGR-A
                                        & MRE.
                                        Routine dental
 MEDICAL                                nonexistent. No
   CARE         11 of 28      39%
                                        physical given at the
 (Includes                              mob and
  dental)                               demobilization.
                                        Shortage of doctors.
                                        Limited computer use,
ACCESS TO                               poor internet
  COMM          17 of 28      61%
                                        connection/limited
  WITH                                  number of phones.
 FAMILY                                 Expensive charges on
                                        phone cards.


* In most cases, respondents commented that conditions in-theater improved over time.
  In some cases, there was a perception of disparity due to poor coordination or a lack of
  information, i.e. the dental policy. Routine care was only available for permanent party soldiers
  and the majority of permanent party soldiers were AC. There was no routine dental care
  available for other than permanent party (deployed) soldiers—RC or AC.

All TAGs reported that these issues improved over time, resulting in fewer complaints.

                                    Return to Table of Contents



                                                  61
         Appendix D –Department of Defense (DoD)
                     Comments




(b)(6)
                            62
Appendix D – DoD Comments (Cont.)




                   63
Appendix D –DoD Comments (Cont.)




                   64
Appendix D –DoD Comments (Cont.)




                   65
         Appendix D –DoD Comments (Cont.)




                       Return to Table of Contents
(b)(6)

                                  66
         Appendix E - Army/U.S. Army Reserve
                      Command (USARC) Comments




(b)(6)
                          67
         Appendix E - USARC Comments (Cont.)




(b)(6)

                            68
         Appendix E—USARC Comments (Cont.)




                     Return to Table of Contents



(b)(6)
                                 69
         Appendix F - Army National Guard (ARNG)
                              Comments




(b)(6)
                           70
Appendix F - ARNG Comments (Cont.)




                   71
Appendix F - ARNG Comments (Cont.)




                   72
Appendix F - ARNG Comments (Cont.)




                   73
Appendix F - ARNG Comments (Cont.)




             Return to Table of Contents



                         74
         Appendix G – Organizations Visited
Under Secretary Of Defense for Personnel and Readiness
Assistant Secretary of Defense (Reserve Affairs)
Assistant Secretary of Defense Health Affairs
Office Chief of Joint Chiefs of Staff
Combatant Commander U.S. Central Command
Deputy Chief of Staff for Logistics
Chief, Army Reserve
Commander, US Army Reserve Command
Commander Army Material Command
Director, Defense Logistics Agency
Director, Defense Personnel Support Center
Chief, National Guard Bureau
Director Army National Guard
Inspector General, Department of the Army
Inspector General, US Army Reserve Command
Inspector General, National Guard Bureau
Commander, Defense Supply Center Philadelphia

Units visited:

229th Military Police Co. (ARNG)
299th EN Co (USAR) Ft Belvoir VA
464th Transportation Co. (USAR) Ft Belvoir VA
1st BN 124th IN (ARNG) Miami FL
1 BN 152nd IN (ARNG) Martinsville IN
1st BN 293rd IN (ARNG) Ft Wayne, IN
221st MI BN (ARNG) Atlanta, GA
656th Trans Co (USAR) Springfield OH
705th Trans Co (USAR) Dayton OH
B Co 52nd EN BN (ARNG) Albany OR
1042nd Medical Aviation Co (ARNG) Salem OR
751st QM Co (USAR) Mesa AZ
348th Trans Co (USAR) Phoenix AZ
3/7th Calvary 3ID (USA) Ft Stewart GA
Selected units visited by CFLCC/3d Army IG in Iraq and Afghanistan

                                  Return to Table of Contents




                                             75
Appendix H – Questionnaires
Questions for U.S. Army Reserve Forces Command (USARC) Regional Readiness
Commands (RRCs)

Unit Information

   1. Which theater in the CENTCOM Area of operations did your unit deploy to--
      Iraq/Kuwait or Afghanistan?

   2. How did you maintain contact with those deployed units?

   3. Overall, were there any complaints about your deployed soldiers being treated as “second
      class citizens” by active duty superiors? If yes, explain the nature and timeframe of
      disparate treatment?

   4. Did your deployed units complain about the availability of potable water? If yes, explain
      the nature of the complaint.

   5. Did your deployed units complain about lack of or problems with Organization Clothing
      and Individual Equipment (OCIE)?

   6. Did your deployed units complain about the quality of the food or food service in their
      Camp/Base/FOB? If yes, explain the nature and timeframe of the complaints.

   7. Did your deployed units complain about access to medical care while in their
      Camp/Base/FOB? If yes, explain the nature and timeframe of the complaints.

   8. Did your deployed units complain about the overall quality of medical care provided?
       Are you aware of instances where deployed soldiers had medical conditions that went
       untreated while they were deployed? If yes, explain the nature and timeframe of the
       complaints.

   9. Did your deployed units complain about access to telephone or internet communications
      for contact with family members? If yes, explain the nature and timeframe of the
      complaints.

   10. Did your deployed units complain about the frequency of access to communications for
       contact with family members? If yes, explain the nature of the complaints.

   11. Was it necessary for your command to take corrective action from CONUS to fix any
       problems for your deployed units concerning second-class treatment or problems related
       to the five focus areas listed? If yes, explain the nature of the action taken




                                              76
         12. What were the three most common complaints you received from your deployed units?

         13. In those cases where complaints were received, was there any validation provided
             regarding the accuracy of the concerns?

         14. In those areas where complaints were expressed, was the nature of the concern exclusive
             to Reserve Component soldiers?

         15. Have you seen improvements made in those areas where complaints have previously
            been expressed?

         16. Are there any statutory changes that could be incorporated to make Reserve Component
             deployments more effective?

         17. Is there anything mentioned above that you think needs to be further reviewed by the
             Department of Defense, Inspector General o                Inspector General?
            Point of contact for this quest                                      t (703) 604-   or e-mail
            at                          or                                         (703) 604-   or e-mail
            at

            Your assistance in this matter is appreciated.


                            ------------------------------------------------------------
                                 Name        Office/Position Phone E-mail




(b)(6)

                                                        77
Questions for Deployed Unit Commanders or First Sergeants (Unit Questionnaires)


                                                                     Date:_________________
UNIT INFORMATION


1. Using the index below, provide details on the deployment of units under your command.

       a. Your unit name, deployed organizational reporting chain:

       b. Your CONUS organizational reporting chain.
       c. Primary deployed camp, base, or FOB name and location in Afghanistan or
          Kuwait/Iraq where your unit soldiers live, eat, and work:

       d. Other camps, bases or FOBs where your soldiers sometimes live, eat, and work, if any:

       e. Month/year of arrival in Afghanistan or Kuwait/Iraq and month of planned departure.

       f. Names and CONUS locations of Army National Guard and/or US Army Reserve (RC)
       units
          that are assigned to your organization:
       g. Names and CONUS locations of any Army National Guard and/or US Army Reserve
       (RC)
          units, not assigned to your organization, with which you are living, eating, and/or
       working:

2. Your name, rank, title, e-mail address, and phone number:

                                      General Questions:
Are you aware of any complaints or problems concerning second-class treatment of RC soldiers
by their active duty counterparts? If yes, state whether you believe the complaints or problems
to be accurate, provide details on the incident(s), the cause or causes, approximate dates, and
location.


                             Specific Quality Of Life Questions:
Water-




                                               78
1. What are the approved sources for drinking water at the location(s) where you and your
soldiers live and work; e.g., reverse osmosis water purification unit (ROWPU), water buffalo,
bottled water, and how do you rate the quality of each?


2. Has sufficient bottled or other drinkable water been readily available to you? If not, can you
explain why and whether the situation is getting better or worse?


3. Have you, your soldiers, or anyone you know gotten sick from drinking ROWPU purified
water? If yes, can you provide examples, approximate dates, location, and whether the situation
is getting better or worse?


4. Are the AC and RC soldiers at your deployed location(s) (AO) getting the same types and
quantity of water?


Clothing and Individual Equipment
1. Which uniform and theater-specific equipment items, such as desert camouflage uniforms
(DCUs), desert boots, Interceptor body armor (IBA) vests and small arms protective inserts
(SAPI), if any, did your soldiers not receive?
 a. At home station?


 b. At mobilization station or staging base?


2. Which missing items, if any, were provided to your soldiers at your mobilization station or
staging base?


3. Which missing items, if any, have been provided to your soldiers at your deployment location
and which items, if any, do you still not have?


4. How long did it take for you get the missing items?




                                                  79
5. Has uniform or equipment shortages affected your soldiers’ ability to accomplish their
mission? If yes, provide example(s) and whether the situation is getting better or worse.


6. Did AC and RC soldiers in your AO have different problems with clothing and personal
equipment shortages? If yes, can you provide examples, approximate dates, location, and say
whether the situation is getting better or worse.


Food Service and Food Quality
1. What types of food service is available to you and your unit; e.g., contractor-staffed dining
facility (DFAC), military-staffed DFAC, mobile kitchen, MREs, other? Please list the answers
for each camp, base or FOB where the soldiers being interviewed regularly eat.

2. What is/are the ration cycle/cycles where you eat; e.g., hot breakfast, cold food or MREs at
lunch, and hot dinner?


3. On a scale of 1 to 10, how is the quality of food service where you eat and is the quality
getting better or worse?


4. On a scale of 1 to 10, how would you rate the quality, quantity, and variety of the food and is
it getting better or worse?


5. If you feel food service or food quality or quantity is not satisfactory, what would you
recommend?


6. Do AC and RC soldiers in your AO eat the same ration cycle as you and your unit? If no, can
you provide examples, approximate dates, location, and whether the situation is getting better or
worse?


Medical Care
1. What are the levels of medical services/dental services that are available to you (organic to
the unit, TMC, hospital)?




                                                    80
2. Have you ever had or do you personally know anyone who had a problem getting medical
care? If yes, can you provide examples, approximate dates, location, and whether the situation is
getting better or worse?


3. Are there any medical problems that you have not received treatment for? If yes, can you
provide examples, approximate dates, location, and whether the situation is getting better or
worse?


4. Do AC and RC soldiers in your AO have the same procedures for medical care? If no, can
you provide examples, approximate dates, location, and whether the situation is getting better or
worse?


Communications
1. What communications are available for your soldiers to contact their family; e.g., pay
phones, cell phones, free DSN lines, internet?


2. Who are the commercial companies providing these services?


3. Do you have adequate access to internet and telephones to maintain contact with your family?
If no, explain circumstances and whether the situation is getting better or worse.


4. Do RC and AC soldiers in your AO have the same access to internet and telephones for
personal use?


                                      Optional Questions:


1. What are the most frequent Quality of Life-related (QOL) complaints or problems for you and
your soldiers?


2. Which QOL complaints or problems are local to your camp, base, or FOB, and what
corrective action has been taken or in the process of being taken.




                                                 81
         3. Were/are the causes of the QOL complaints or problems corrected, or in the process of being
         corrected at the camp, base or FOB level? If yes, explain the nature of the complaints/problems?


         4. Have any QOL complaints or problems been reported up your chain of command for
         corrective action, and has the problem been corrected or in the process of being corrected? If
         yes, explain the nature of the complaints/problems?


         5. Have any QOL complaints or problems been reported to IG officials in your AO and, if so, do
         you know the status of those reports?


         6. Are your soldiers aware that they may also report specific problems or concerns directly to
         the DoD Inspector General Hotline at 1-800-424-9098 (CONUS), or by e-mail at
         hotline@dodig.osd.mil, or by U.S. mail at Defense Hotline, The Pentagon, Washington D.C.
         20301-1900? (Anonymity, if they feel that is necessary.)


                                 his questionnaire is             , at (703) 604-      or e-mail at
                                  or                            (703) 604-        or e-mail at


         Your assistance in this matter is appreciated.




(b)(6)



                                                          82
Questions for State Adjutants General

1. What units from your state were deployed in support of the War on Terrorism and Operations
in Afghanistan and Iraq?

2. Did you conduct any specialized training upon notification to deploy?

3. Did you maintain contact with those deployed unit? If yes, did those units complain of the
lack of potable water?

4. Did those units complain about the lack of proper clothing? Were there any problems with
acquiring needed personal equipment?

5. Did those units complain about the quality of the food served?


6. Did those units complain about the lack of medical care received?


7. Did those units complain about their treatment at medical care facilities?


8. Did those units complain about the overall quality of medical care provided?.


9. Are you aware of instances where deployed soldiers had medical conditions that went
untreated while they were deployed?

10. Did those units complain about lack of access to communications for contact with family
members?


11. Did those units complain about the frequency of access to communications for contact with
family members?


12. Did those units complain about the quality of communication for contact with family
members?      .

13. Of these issues that we have addressed (Potable Water supplies, clothing, food, medical care,
and communications with families), was it necessary for your state to take action from CONUS
to fix any of these problems after the mobilization date?

14. What were the three most common complaints you received from your deployed units?



                                                83
15. Overall, were there any complaints from your deployed personnel about being treated like
“second class citizens” by their active duty counterparts?


16. In those cases where complaints were received, was there any validation provided regarding
the accuracy of the concerns?

17. In those areas where complaints were expressed, was the nature of the concern exclusive to
Reserve Component soldiers?

18. Have you seen improvements made in those areas where complaints have previously been
expressed?

19. What are the safety measures taken to ensure that returned soldiers are physically and
mentally stable after their return to home station?

20. What are your top three mobilization concerns?

21. Are there any statutory changes that could be incorporated to make mobilization and reserve
                            component deployments more effective?

                                  Return to Table of Contents




                                               84
Appendix I – Sensing Session Questions

Duty Positions_______________________Unit______________Date______________
Interviewee’s Grade Structure_____________________________________________

   1. Was there enough water and was it readily available?

   2. Has equipment shortages affected your ability to accomplish your mission?

   3. During mobilization, were you issued your authorized personal equipment?

   4. Were equipment shortages filled in theater?

   5. How is the quality of food service?

   6. Have there been any problems with having enough food to feed the unit?

   7. Have you ever had a problem getting medical care?

   8. Where do you go for routine medical/dental care?

   9. How would you rate your access to Internet and MWR phone facilities?

   10. Do you feel that any of the problems that you have identified are due, all or in part, to
       your being a member of the Reserve Component? If so please explain.

                                    Return to Table of Contents




                                                85
Appendix J- Other Issues
Army National Guard forces are directed by the State Adjutants General (TAGs) when not under
Federal control. The TAG is the Chief of Staff to the Governor. The Governor is the
Commander-in-Chief of all state military forces. The TAG exercises the powers and duties of
the Commander-in-Chief and manages the administration, supply and training of state National
Guard Forces forces. To complete this evaluation, feedback from the TAGs was essential. In
coordination with the National Guard Bureau, a questionnaire was developed and e-mailed to all
54 TAGs. We received 28 responses and one negative (no-input) reply. Additionally, we
summarized issues retrieved from Regional Readiness Commands’ (RRCs) After Action Report
(AAR) briefings and observations from Joint Monthly Access for Reserve Components
(JMARC) trips.

There were a variety of issues that were beyond the scope of this evaluation. However, the
preponderance of responses from questionnaires, sensing sessions, and After Action Reports
indicate the following issues impact readiness and morale:

   •   RC pay problems were among the top issues mentioned. The inability to setup
       allotments for child support, family and other recurring expense was a problem. The
       starting and stopping of special entitlements, like Hostile fire/imminent danger pay,
       was also a problem identified. Soldiers had returned to CONUS and were still getting
       entitlements. To address these pay issues, the Defense Finance and Accounting
       Service will phase in a new, more reliable and effective pay system for the military.
       This system is called the Forward Compatible Payroll and it promises far fewer
       errors, an easy-to-understand Leave and Earnings Statement for service members, and
       instantaneous adjustments to pay records. The schedule for implementation is being
       reassessed and project managers were unable to provide a date to begin actual
       fielding of the system.

   •   Problems with personnel policies for replacement of soldiers who are demobilized due to
       injury, death, family care plans etc. Additionally, problems surfaced with RC promotions
       in theater, as well as the availability of military schools/training for RC soldiers to attend
       while mobilized.

   •   Length of tour overall and time in combat zone. The time spent on active duty was
       thought to be too long. Spending six months at the mobilization station (MOBSTA) and
       then another 12 months in country was mentioned often.

   •   Equipment shortages (e.g., Up-Armored HMMWVs, SINCGARS radios, crew served
       weapons, advanced combat optics, NVDs). Many examples of shortfalls and problems
       with compatibility of equipment were cited. Equipment needed to do the mission was not
       a part of the original Modified Table of Organization and Equipment (MTOE), in some
       cases. Units reported that there were problems, initially, with requisitioning tires, repair
       parts, and supplies. One unit reported that it took two months before they could get their
       requisitions through the supply system. Derivative Unit Identification Codes (UICs) and


                                                86
       Department of Defense Activity Address Codes (DODAACs) must be assigned to the
       unit prior to leaving the mobilization station. This information must be entered into the
       unit level logistics system (ULLS) boxes so that they may requisition supplies in theater.
       In some cases, this did not happen and it caused a problem for the unit when they tried to
       request supplies in theater. The RC units that could not requisition had to go through their
       AC counterparts and have them requisition supplies/equipment on their behalf. In some
       cases, the requisitions went through the supply system, but were shipped to the RC
       CONUS address and the home unit had to send the supplies/equipment through the postal
       system for the unit.

       DoD leadership had a specific interest in ensuring that “shooters” did not deploy without
       essential equipment (body armor, chemical/biological protection suits, etc.). A tracking
       system was developed to manage the issues of body armor. Leadership closely monitored
       the detailed tracking system to ensure requirement-based distribution of body armor. As
       of November 2004, reports indicated that 4 sets of DCUs and body armor were available
       for all soldiers.

       The U.S. Army's Rapid Fielding Initiative (RFI) program was developed to provide
       soldiers engaged in or preparing for combat/contingency operations with state-of-the-art
       individual weapons, clothing, and equipment. RFI began early in 2002, during the
       operations in Afghanistan. Program Executive Office (PEO) Soldier went into the field
       and asked soldiers directly what they required to operate effectively in the Afghanistan
       environment. Using this direct soldier input, RFI provided needed equipment in weeks.

Additional concerns:

   •   Long term care for soldiers with serious injuries and disabilities. Some RC soldiers were
       supposedly told that they could go to the Veterans Affairs (VA) for treatment once they
       returned home and others had to remain on active duty in medical hold.

   •   Time from notification to activation. There were soldiers that cited examples of short
       notice activation and the hardship it caused, in many cases.

   •   Time spent at Mobilization Stations (MOBSTA) and relevancy of training. Complaints
       were received about the time spent at MOBSTA. The type and quality of training
       conducted was also a concern.

   •   Unit integrity and the ability to replace a soldier that gets cross-leveled into another
       organization or medically evacuated out of the combat theater.

   •   Funding of unit requirements while at the MOBSTA. Some units lost use of their state
       International Merchant Purchase Agreement Card (IMPAC) cards and struggled to get
       needed items.

   •   The following issues were reported to the Deputy Combined Forces Land Component
       Command (CFLCC) Commander in September 2003 as possible disparity between the


                                                 87
RC and AC units: Morale Welfare and Recreation (MWR) resources, housing, leave and
pass policy, estimated time of separation (ETS), and retirement, while mobilized.


                         Return to Table of Contents




                                     88
Appendix K – Glossary
Section I
Acronyms

AAR         After Action Report

AC          Active Component

AAFES       Army and Air Force Exchange Services

AOA         Add on Armor

AOR         Area of Responsibility

APL         Army Priority Listing

APS         Army Pre-positioned Stocks

ACHPPM      Army Center for Health promotion and Preventive Medicine

AMSA        Army Medical Surveillance Activity

AR          Army Regulation

ARCENT      Army Central Command

ARNG        Army National Guard

ASPB        Army Strategic Planning Board

BDU         Battle Dress Uniform (woodland pattern)

CALL        Center for Lessons Learned

CASCOM      U.S. Army Combined Arms Support Command

CBHCO       Community Based Health Care Organization

CENTCOM     U.S. Central Command

CFLCC       Coalition Forces Land Component Commander

CIF         Central Issue Facility

CJTF-76     Combined Joint Task Force-76 (Afghanistan)

COCOM       Combatant Command


                                     89
CONUS       Continental United States

CS          Combat Support

CSS         Combat Service Support

CSH         Combat Support Hospital

DA          Department of the Army

DAIG        Department of the Army Inspector General

DCU         Desert Camouflage Uniform (also called Desert Battle Dress Uniform)

DFAC        Dining Facility

DLA         Defense Logistics Agency

DMSS        Defense Medical Surveillance System

DODAAC      Department of Defense Activity Address Code

DSB         Defense Science Board

DSN         Defense Switching Network

DRRS        Defense Readiness Reporting System

DSCP        Defense Supply Center Philadelphia

DoD         Department of Defense

DoDD        Department of Defense Directive

DoDI        Department of Defense Instruction

DoDIG       Department of Defense Inspector General

DUSD(MPP)   Deputy Under Secretary of Defense (Military Personnel Policy)

EAD         Echelons Above Division

EVAC        Evacuation Hospital

FH          Field Hospital



                                     90
FOB      Forward Operating Base

GAO      Government Accountability Office

GKO      Guard Knowledge Online

GWOT     Global War on Terrorism

HEMMT    Heavy Expanded Mobility Tactical Truck

HMMWV    High Mobility Multi-purpose Wheeled Vehicle

HMW      Health, Morale, and Welfare

HOA      Horn of Africa

IBA      Individual Body Armor

IED      Improvised Explosive Device

IG       Inspector General

IMPAC    International Merchant Purchase Agreement Card

IRR      Individual Ready Reserve

JMARC    Joint Monthly Access for Reserve Components

KBR      Kellogg, Brown, and Root

LOGCAP   Logistics Civil Augmentation Program

LSA      Logistics Support Area

MACOM    Major Command

MASH     Mobile Army Surgical Hospital

MEDCOM   Medical Command

METL     Mission Essential Task List

MFR      Memorandum For Record

MNC-I    Multi-National Corps Iraq




                                  91
MNF-I    Multi-National Force Iraq

MOBSTA   Mobilization Station

MPS      Military Postal System

MRE      Meal, Ready to Eat

MRP2     Medical Retention 2 Program

MTF      Military Treatment Facility

MWR      Morale, Welfare and Recreation

NDAA     National Defense Authorization Act

NGB      National Guard Bureau

NGBIG    National Guard Bureau Inspector General

NGREA    National Guard and Reserve Equipment Account

NVD      Night Vision Devices

NVG      Night Vision Goggles

OCONUS   Outside of the Continental United States

OESH     Occupational and Environmental Safety and Health Department

OEF      Operation Enduring Freedom

OICE     Organizational Clothing and Individual Equipment

OIF      Operation Iraqi Freedom

OPLAN    Operation Plan

OSD      Office of the Secretary of Defense

PBO      Property Book Officer

PCS      Permanent Change of Station

PEO      Program Executive Office



                                   92
POC        Point of Contact

PWC        The Public Warehousing Company

RC         Reserve Component

RFI        Rapid Fielding Initiative

RMC        Regional Medical Command

RRC        Regional Readiness Command

SINGARS    Single-Channel Ground-Air Radio System

SUPCOM     Support Command

TAACOM     Theater Area Army Command

TAG        The Adjutant General

TAMP       Transitional Assistance Management Program

TCS        Temporary Change of Station (deployed)

TDA        Table of Distribution and Allowance

TDY        Temporary Duty

TRADOC     U.S. Army Training and Doctrine Command

TPFDD      Time Phased Force Deployment Data

UGR        Unitized Group Ration

UIC        Unit Identification Code

ULLS       Unit Level Logistics System

USACHPPM   U.S. Army Center for Health Promotion and Preventive Medicine

USAR       United States Army Reserve

USARC      United States Army Reserve Command

UR         Unit Readiness



                                       93
VA                    Veterans Affairs

Section II
Terms


CIF: Central Issue Facility—An organization whose mission is to stock, issue, exchange, and
process turn-ins of designated Organizational Clothing and Individual Equipment authorized by
CTA 50-900.

Common Table of Allowances (CTA)--An Army authorization document for items costing less
than $100,000 which are required for common Army-wide use by individuals, units, and
activities.

CTA 50-900--An Army publication, that lists authorized organizational clothing and individual
equipment (OCIE), clothing bag personal items and operational clothing items worn or used by
soldiers.

DODAAC--Department of Defense Activity Address Code is a six position code that uniquely
identifies a unit, activity or organization that has the authority to requisition and/or receive
materiel. The first position designates the particular Service/Agency element of ownership.

Force/Activity Designator (FAD)--Units use this table to determine a Roman numeral
designator ranging from I (highest) through V (lowest). It reflects how essential a unit or
program is to the DoD’s overall mission.

International Merchant Purchase Agreement Card (IMPAC)--A registered trademark of the
U.S. Bank used by them to refer to the Army’s VISA purchase card program. All purchase cards
within DoD are referred to as GSA Smart Pay, Government Purchase Cards.

Joint Monthly Access for Reserve Components Program (JMARC)--Relative to oversight of
RC specific concerns/issues within the area of operation (AOR). The purpose is to provide RC
Senior Leaders (GOs/CSMs) the opportunity to visit their soldiers. JMARCs are conducted
monthly with principals among the RCs. RC Senior Leaders want to see their own component's
units and soldiers; when supportable, arrangements are made so RC leaders may visit their
respective units at their deployed locations.

Meal, Ready-to-Eat--MRE is a totally self-contained operational ration consisting of a full meal
packed in a flexible meal bag.

Modification Table of Organization (MTOE)--An authorization document for personnel and
equipment that ranges from modifying the numbers or types of personnel/equipment in a current
organization from its basic Table of Organization (TOE) to documenting an entirely new
organization.




                                                94
Multi-National Corps Iraq (MNF-I)--The Multi-National command that focuses on strategic
aspects of the military presence in Iraq, such as talking with sheiks and political leaders, and on
training, equipping, and fielding Iraqi security forces.

Multi-National Force Iraq (MNF-I)--The Multi-National command that is involved in the
tactical operations, but only to the extent that they have somewhat of an operational and strategic
impact on the country.

MWR Calls--Personnel are authorized to make one 15 minute morale phone call per week back
to the states via a base DSN operator.

National Guard Bureau (NGB)--Joint Army and Air Force Headquarters designated as the
peacetime channel of communications between the Departments of the Army and Air Force and
the States’ National Guard, as established by section 10501, Title 10, United States Code.

Operating Tempo (OPTEMPO)--A term used by the Army to measure the annual operating
miles or hours for the major equipment system in a battalion-level or equivalent organization.
OPTEMPO allows Commanders to forecast and allocate funds for fuel and repair parts for
training events and programs.

Operational Rations--Operational rations is a collective term for Meals, Ready to Eat (MREs),
Unitized Group Rations (UGRs), or a combination thereof. They are used to feed individuals
performing duty in time of war or other contingencies. They are also used in peacetime for
emergencies, travel, and training. DSCP purchases these rations only from U.S. and other
approved suppliers.

Organizational Clothing and Individual Equipment (OCIE)--Items of clothing and
equipment that a soldier needs for a specific mission or while assigned to a specific unit that has
need for the OCIE.

Reserve Component (RC)--The Army National Guard of the United States and the United
States Army Reserve.

Reverse Osmosis Water Purification Unit (ROWPU)--Provides potable water from any water
source. The Army’s ROWPU produces potable water from a variety of raw water sources such
as wells, lakes, seas, lagoons, rivers, oceans, and ice holes. The Army relies on the ROWPU to
purify brackish water and salt water. The ROWPU, resembling a large trailer, comes in a variety
of sizes and uses a variety of chemicals and membranes to filter and purify water for
consumption. The proper use of the ROWPU can provide purified drinking water for thousands
of soldiers in a military theater.

Space and Naval Warfare Systems (SPAWAR)--This organization has many functions. For
the purposes of this report, they are a provider computers and printers with Internet access, at no
cost to soldiers.




                                                 95
Transportation Command Regulating and Command & Control Evacuation System
(TRAC2ES)--Combines transportation, logistics, and clinical decision elements into a seamless
patient movement automated information system. It is capable of visualizing, assessing, and
prioritizing patient movement requirements, assigning proper resources, and distributing relevant
data to deliver patients efficiently.

United States Army Reserve Command (USARC)--Commands all Army Reserve units in the
continental United States and Puerto Rico, except for Civil Affairs and Psychological
Operations, which report directly to the Army. USARC is responsible for the staffing, training,
management, and deployment of its units to ensure their readiness for Army missions.

Unitized Group Rations (UGR)--The UGR offers seven breakfast menus and 14 lunch/dinner
menus. Fifty complete meals are packed together in the UGR. UGRs consist of frozen or semi-
perishable foods that can be quickly heated and served.


                                  Return to Table of Contents




                                               96
Appendix L – Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)
 Assistant Secretary of Defense (Health Affairs)
 Assistant Secretary of Defense (Reserve Affairs)
 Chairman, Reserve Forces Policy Board

Office of the Chairman, Joint Chiefs of Staff

Director for Logistics (J-4)

Combatant Commanders

Commander, Multi-National Forces, Iraq
Commander, Combined Forces, Afghanistan
Deputy Chief of Staff for Logistics, U.S. Central Command (J-4)
Inspector General, U.S. Central Command
Office of the Surgeon, Combined Forces Land Component Command

Defense Agencies

Director, Defense Logistics Agency
 Commander, Defense Supply Center Philadelphia

Department of the Army

Inspector General, Department of the Army
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Commander, Army Material Command
Office of The Surgeon General
  Chief, Proponency Office for Preventive Medicine, Directorate of Health Services
Chief, Army Reserve
Commander, U.S. Army Forces Command
Commander, Third U.S. Army
Deputy Chief of Staff for Logistics Army (G-4)
Director, Army National Guard
Commander, Army Quartermaster Corps
Inspector General, National Guard Bureau
Inspector General, U.S. Army Reserve Command
Inspector General, U.S. Army Forces Command




                                                97
Congressional Committees and Subcommittees, Chairman and Ranking Minority Member

Senate Subcommittee on Defense
Senate Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Subcommittee of Defense
House Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform


                               Return to Table of Contents




                                           98
This Page Left Intentionally Blank




               99
THE MISSION OF THE OIG DoD_______________________________________________

The office of the Inspector General of the Department of Defense was established by Congress
as one of the “independent and objective units [within listed ‘establishments,’ including the
Department of defense] to conduct and supervise audits and investigations relating to programs
and operations of those establishments.” As the principal advisor to the Secretary of Defense in
all Inspector General matters, the Inspector General serves as an extension of “the eyes, ears, and
conscience” of the Secretary. In support of the mission of the Department of Defense, the Office
of the Inspector General endeavors to:

   •   “Provide leadership…to promote economy, efficiency and effectiveness;”

   •   Prevent and detect “fraud, waste, and abuse;”

   •   “Provide policy direction for audits and investigations;”

   •   “Provide a means for keeping the Secretary of Defense and the Congress fully and
       currently informed about problems and deficiencies;” and

   •   “Give particular regard to the activities of the internal audit, inspection, and investigative
       units of the military departments with a view toward avoiding duplication and insuring
       effective coordination and cooperation.”


TEAM MEMBERS_____________________________________________________________

The Joint Operations, Defense Agencies, and Service Inspectors General Division, Inspections
and Evaluations Directorate, Office of the Deputy Inspector General for Inspections and Policy,
Office of the Inspector General for the Department of Defense prepared this report. Personnel
who contributed to the report include LTC Linda K. Daniels (USA) – Team Leader, LTC Hank
Amato (NGB IG), David L. Leising, Maj. Richard T. Higdon (USAF), Gary L. Queen, Maj.
Thomas L. Burton (USMC), MAJ Charles Coates (NGB IG), MAJ Matthew McDermott (NGB
IG), and MAJ Michael E. Patterson (NGB IG).



ADDITIONAL REPORT COPIES________________________________________________

Contact us by phone, fax, or e-mail:
 Inspections and Evaluations Directorate, Deputy Inspector General for Inspections and Policy
 COM: 703.604.9130 (DSN 664-9130)
 FAX: 703.604.9769
 E-MAIL: crystalfocus@dodig.osd.mil
 Electronic version available at: http://www.dodig.mil/Inspections/IE/Reports.htm




                                                100
